<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


.                                     
                         [H.A.S.C. No. 116-30]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

  SUBCOMMITTEE ON INTELLIGENCE AND EMERGING THREATS AND CAPABILITIES 
                                HEARING

                                   ON

                     EVOLUTION, TRANSFORMATION, AND

                      SUSTAINMENT: A REVIEW OF THE

                    FISCAL YEAR 2020 BUDGET REQUEST

             FOR U.S. SPECIAL OPERATIONS FORCES AND COMMAND

                               __________

                              HEARING HELD
                             APRIL 9, 2019

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-497                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
                                     
  


   SUBCOMMITTEE ON INTELLIGENCE AND EMERGING THREATS AND CAPABILITIES

               JAMES R. LANGEVIN, Rhode Island, Chairman

RICK LARSEN, Washington              ELISE M. STEFANIK, New York
JIM COOPER, Tennessee                SAM GRAVES, Missouri
TULSI GABBARD, Hawaii                RALPH LEE ABRAHAM, Louisiana
ANTHONY G. BROWN, Maryland           K. MICHAEL CONAWAY, Texas
RO KHANNA, California                AUSTIN SCOTT, Georgia
WILLIAM R. KEATING, Massachusetts    SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 MIKE GALLAGHER, Wisconsin
CHRISSY HOULAHAN, Pennsylvania       MICHAEL WALTZ, Florida
JASON CROW, Colorado, Vice Chair     DON BACON, Nebraska
ELISSA SLOTKIN, Michigan             JIM BANKS, Indiana
LORI TRAHAN, Massachusetts
              Lindsay Kavanaugh, Professional Staff Member
                Peter Villano, Professional Staff Member
                         Caroline Kehrli, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Chairman, Subcommittee on Intelligence and Emerging Threats and 
  Capabilities...................................................     1
Stefanik, Hon. Elise M., a Representative from New York, Ranking 
  Member, Subcommittee on Intelligence and Emerging Threats and 
  Capabilities...................................................     4

                               WITNESSES

Clarke, GEN Richard D., USA, Commander, U.S. Special Operations 
  Command........................................................     7
Mitchell, Mark E., Principal Deputy Assistant Secretary of 
  Defense for Special Operations and Low-Intensity Conflict......     6

                                APPENDIX

Prepared Statements:

    Clarke, GEN Richard D........................................    46
    Langevin, Hon. James R.......................................    31
    Mitchell, Mark E.............................................    34

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bacon....................................................    63
    Mr. Langevin.................................................    63

Questions Submitted by Members Post Hearing:

    Mr. Bacon....................................................    73
    Mr. Langevin.................................................    67
              
              
              EVOLUTION, TRANSFORMATION, AND SUSTAINMENT:
   A REVIEW OF THE FISCAL YEAR 2020 BUDGET REQUEST FOR U.S. SPECIAL 
                     OPERATIONS FORCES AND COMMAND

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
     Subcommittee on Intelligence and Emerging Threats and 
                                              Capabilities,
                            Washington, DC, Tuesday, April 9, 2019.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
room 2212, Rayburn House Office Building, Hon. James R. 
Langevin (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE 
 FROM RHODE ISLAND, CHAIRMAN, SUBCOMMITTEE ON INTELLIGENCE AND 
               EMERGING THREATS AND CAPABILITIES

    Mr. Langevin. The hearing will come to order.
    First of all, I want to welcome our witnesses here today. 
Welcome to the hearing on the fiscal year 2020 budget request 
for the United States Special Operations Command and special 
operations forces.
    It is an understatement to say that the world has changed 
since the establishment of the command in 1987. 9/11 
dramatically altered the national security landscape. SOF 
[special operations forces] personnel have been deployed for 
almost two decades, and despite policy shifts and planned 
drawdowns, even today they continue to deploy in support of 
Operation Inherent Resolve and Operation Enduring Freedom.
    Outside of declared theaters of active armed conflict, 
geographic combatant commanders [GCC] have what some would call 
an insatiable appetite for SOF to achieve their objectives in 
their campaign plans, and they have made use of congressional 
authorities granted to the Department over the last decade 
including security cooperation, support of ongoing operations, 
exercises, and other activities to do so.
    The Department has recognized that GCC requirements are a 
major contributor to the high OPTEMPO [operation tempo]. For 
instance, one stated purpose for the Africa Command force 
optimization effort announced in November 2015 was to decrease 
the burden on SOF. However, optimization relies upon events 
that may not transpire anytime soon, such as assignment of a 
security force assistance brigade to the continent. And I am 
concerned that this optimization may be happening without an 
adequate plan to continue to support our partners and allies in 
Africa and beyond.
    For years, I have highlighted this ever-increasing demand, 
and SOF have critical skill sets and conduct activities that 
can be employed across the full spectrum of conflict and 
against all types of warfare. They are the force of choice. Yet 
we must be prudent about how the force is employed or we risk 
breaking the tip of the spear.
    General Tony Thomas, the previous commander of SOCOM [U.S. 
Special Operations Command], took action to manage the demand 
for SOF. To that end, the deploy-to-dwell ratio has improved 
for a substantial percentage of the force. Yet more must be 
done to continue this positive trend and reduce the burden on 
our SOF personnel. As SOCOM aligns to the National Defense 
Strategy, continuing to understand and manage that demand, not 
just increasing the size of the force, will remain a key 
component of readiness.
    Prior to his retirement, General Thomas, along with the 
Assistant Secretary of Defense for Low-Intensity Conflict, Mr. 
Owen West, began an effort related to professionalism and 
ethics training in the force. The effort is to understand and 
correct what they identified as a disordered value system in 
the force, and I applaud his efforts in that respect. This 
committee is committed to maintaining a sound culture our quiet 
professionals can thrive in, and I look forward to hearing from 
our witnesses on how they plan to continue to build on the 
efforts that are underway.
    The fiscal year 2020 budget request for USSOCOM totals 
$13.8 billion. As in years past, there is more than $4 billion 
of SOCOM funding requested in the overseas contingency 
operations account, or OCO. Approximately 90 percent of SOCOM 
funding in OCO is for activities and programs that are 
enduring.
    This concerns me because baseline funding is crucial to 
providing USSOCOM stability. Furthermore, when base funding is 
improperly classified as contingency, it prevents Congress from 
fulfilling its oversight role and considering the totality of 
enduring defense spending in current and future years.
    So I am pleased that the SOCOM request includes SOF-
peculiar investments in technologies outlined in the NDS 
[National Defense Strategy], such as directed energy, cyber, 
and space capabilities. However, as I recently noted in the 
subcommittee's hearing on science and technology, I remain 
concerned that policy is not being developed as fast as the 
technology. So maturation of policy and technology must occur 
simultaneously so that we can field the latest and greatest 
capabilities to our warfighters.
    SOCOM's proposed investments in behavioral health and 
family support under the Preservation of the Force and Families 
initiative has certainly increased, but tragically, in 2018 
suicide rates amongst SOF nearly tripled. This troubles me. 
Family support and behavioral health should be considered as 
important, if not more important, as the physical well-being 
aspects of the initiative. So we must take care of our people 
and our families.
    SOCOM's budget request also includes investments for 
implementation of some of the recommendations from the Niger 
investigation like those related to training. This is important 
progress, and I am glad to see the command is not resting on 
its laurels with respect to the incident in Niger.
    However, I remain disappointed and dismayed that the 
Department has not yet provided the families of the fallen or 
the American people with the final decisions on awards and 
reprimands and is conducting yet another review almost a year 
and a half later.
    SOCOM's budget request also is only 2 percent of the 
Department's total request. When coupled with funding requested 
by the military departments and other agencies for support, the 
total requested funding related to SOF is over $20 billion or 
about 4 percent of the total DOD [Department of Defense] 
request in fiscal year 2020.
    The military departments' budget request and efforts have a 
profound impact on SOF. Since release of the NDS, we have 
carefully scrutinized SOCOM's alignment to the outlined 
priorities, but we haven't been as diligent in ensuring the 
services continue to support SOF SOCOM requirements for a 
sustainable counterterrorism campaign and fully account for SOF 
equities in budget decisions related to future capability 
development and posture. This hearing provides us an 
opportunity to understand where there may be a mismatch in the 
budget request and how service challenges, like recruiting and 
retention, impact title 10 responsibilities of SOCOM.
    So, with that, testifying today is Mr. Mark Mitchell, the 
Principal Deputy Assistant Secretary of Defense, Special 
Operations and Low-Intensity Conflict [SO/LIC].
    Secretary Mitchell is a decorated Army combat vet from the 
SOF community who was amongst the first U.S. soldiers on the 
ground in Afghanistan after 9/11. For his actions in battle 
alongside the Northern Alliance during November 2001 he was 
awarded the Distinguished Service Cross, our Nation's second-
highest military award. He commanded a Joint Special Operations 
Task Force in Iraq from 2010 to 2011.
    In 2014, Mr. Mitchell served in the National Security 
Council as the Director for Counterterrorism on the National 
Security Council, where he was a critical player in the effort 
for the Presidential policy review of hostage policy.
    Mr. Mitchell, welcome back, and I want to thank you for 
your service to our country.
    Mr. Mitchell. Thank you, Mr. Chairman.
    Mr. Langevin. I certainly look forward to hearing from you 
about continued implementation and execution of section 922 of 
the fiscal year 2017 National Defense Authorization Act. This 
legislation elevated the role and responsibility of the 
Assistant Secretary of Defense for Special Operations and Low-
Intensity Conflict to a service-like secretary for SOCOM.
    So welcome to you.
    Also before us is General Richard D. Clarke. General Clarke 
assumed command of SOCOM less than 2 weeks ago.
    General Clarke, I want to welcome you, and I want to thank 
you for being here.
    General Clarke has served the Nation for nearly 35 years. 
His most recent assignment was on the Joint Staff as Director 
of Strategy, Plans, and Policy, J5. He served as the commanding 
general of the 82nd Airborne, spent 6 years in the 75th Ranger 
Regiment in CENTCOM [U.S. Central Command] and EUCOM [U.S. 
European Command], and was the Director of Operations at Joint 
Special Operations Command from 2009 to 2011, including during 
the Osama bin Laden raid.
    General Clarke was also the Commandant of Cadets at West 
Point. He has deployed countless times to Iraq and Afghanistan 
and deployed in support of Operation Desert Storm. He is a 
recipient of the Distinguished Service Medal and the Defense 
Superior Service Medal. He appears before us today as the 12th 
commander of SOCOM.
    General, I want to welcome you here today.
    General Clarke. Thank you, Chairman.
    Mr. Langevin. General, I just again want to thank you for 
your service. And with your background, you are well-poised to 
ensure that SOCOM is structured appropriately and ready to 
effectively execute the NDS as well as to fulfill coordinating 
authority responsibilities.
    And before I turn to the ranking member, I also want to 
take the opportunity to thank Mrs. Clarke, who I know is here 
with you today. I just had the opportunity and the pleasure of 
meeting your wife. And I just want to thank her for her 
commitment to our Nation and for lending you to us and 
supporting you in your work.
    So welcome to you, Mrs. Clarke.
    With that, before we go to opening statements, I want to 
now recognize Ranking Member Stefanik for her remarks.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 31.]

STATEMENT OF HON. ELISE M. STEFANIK, A REPRESENTATIVE FROM NEW 
YORK, RANKING MEMBER, SUBCOMMITTEE ON INTELLIGENCE AND EMERGING 
                    THREATS AND CAPABILITIES

    Ms. Stefanik. Thank you, Chairman Langevin. And thank you 
to our witnesses for being here today.
    Let me begin by welcoming back Mr. Mitchell to our 
committee. And, also, I want to echo Mr. Langevin's remarks in 
congratulating General Clarke on assuming command of U.S. 
Special Operations Command.
    While Jim highlighted many of your leadership roles within 
the U.S. military, he skipped over a very important chapter 
that is near and dear to my heart. I want to thank you for your 
service at Fort Drum as the deputy commanding general and thank 
Mrs. Clarke for her years of service as well. I am the proud 
Representative of the 10th Mountain Division in Congress, so I 
just wanted to note your leadership for my constituents who are 
watching here today.
    Today's event continues our series of traditional posture 
hearings as we examine the fiscal year 2020 budget request for 
U.S. Special Operations Command and prepare for the National 
Defense Authorization Act.
    I am pleased to see continued support for special 
operations forces in this budget request. This force remains 
very much at war, directly and indirectly deployed to more than 
80 countries at any given time. They continue to bear an 
outsize burden, absorbing some 40 percent of recent combat 
casualties, while we also witness significant increases in 
suicides across the force.
    And amidst this continued strain and heavy combat 
commitment throughout the Middle East and Africa, we are now 
also asking our special operations forces to position 
themselves to counter and mitigate nation-state threats such as 
Russia, China, North Korea, and other emerging national 
security threats.
    While the fiscal year 2020 budget request for Special 
Operations Command is seemingly a modest 2.8 increase to $13.38 
billion, when taken in aggregate, this year marks yet again 
continued and seminal growth for our special operations forces. 
In particular, we are seeing nearly 18 consecutive years of 
end-strength growth, which will now approach 74,000 personnel. 
And for context, that is almost as large as the Department of 
State and roughly twice the size of the FBI [Federal Bureau of 
Investigation].
    Make no mistake, this growth was needed after 9/11 and, 
indeed, can still be justified today due to the continued and 
morphing national security threats we face. But while our 21st 
century challenges demand high-end capabilities that only SOF 
can provide, we must continually work to ensure that this force 
remains balanced and modernized and that we are adhering to one 
of the most central of all the SOF truths, that quality is 
better than quantity. On this point, we can never compromise.
    We should also remember that most of the realized growth of 
our special operations forces was originally envisioned to 
support heavy and continued demands for counterterrorism and 
direct action forces and skill sets. How much of those 
experiences will shape our thinking about future conflicts 
remains to be seen.
    Considering this, I would also like to highlight that now, 
more than ever, as we consider the growth of this force, we 
must also ask ourselves if we are truly building the force of 
the future rather than just the force of today and yesterday. 
What unique and strategic contributions can only special 
operations make to our national security to counter and 
frustrate peer adversaries such as China and Russia? To date, I 
do not think that we have thoughtfully answered this important 
question.
    I have long said that a large part of this subcommittee's 
charge is looking far ahead to consider what is next. And in 
doing so, I see great opportunity for special operations forces 
to leverage emerging technology in novel and forward-leaning 
ways. Artificial intelligence, quantum and high-performance 
computing, nanotechnology, and 5G communications, if leveraged 
right, will all provide a significant battlefield advantage for 
special operations forces and the broader joint force. Rest 
assured, our adversaries are already aggressively exploring the 
development of these exponential technologies, which present us 
with both economic and strategic national security challenges 
for our Nation.
    Thank you, Mr. Chairman, for holding this important 
hearing. I look forward to the dialogue in both the open and 
closed session. And I will yield back the balance of my time.
    Mr. Langevin. Thank you, Ranking Member Stefanik.
    And before we go to our witnesses, I would just mention 
that we are expecting votes to be called any minute. I am 
hoping that we can get through both the opening statements. And 
we will recess once votes are called and then be back right 
after that to continue the hearing.
    So, with that, we will now hear from our witnesses and then 
move into the question-and-answer session. And then, after the 
open session, the committee will reconvene in a closed 
classified session.
    With that, your opening statements in full will be 
submitted into the record, without objection, and you each now 
are invited to summarize your statements.
    With that, let me begin by recognizing Secretary Mitchell.

   STATEMENT OF MARK E. MITCHELL, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY OF DEFENSE FOR SPECIAL OPERATIONS AND LOW-INTENSITY 
                            CONFLICT

    Mr. Mitchell. Chairman Langevin, Ranking Member Stefanik, 
and other members of this committee, especially my former 
colleagues Andy Kim, Elissa Slotkin, and Mike Waltz. 
Congratulations on your election and your service on this 
committee.
    I am grateful for the opportunity to testify on our global 
posture for the Department of Defense special operations 
enterprise. My remarks will focus on SO/LIC's statutory 
authority within the administrative chain of command for SOCOM 
overseeing the SOF enterprise.
    I am honored to testify alongside General Richard Clarke, 
with whom I have had the privilege of serving in a combat zone 
and hold in the highest regard. I would also like to recognize 
his lovely wife, Ms. Suzanne Clarke, and thank her for her long 
service. I believe she is a lifelong member of the Army family, 
and that doesn't come without a cost.
    The breadth and capability of our SOF force is astonishing. 
Operating in over 80 countries, this vanguard force tackles our 
most pressing challenges in the most hostile environments.
    In the past 2 years, 25 members of the SOF community have 
been killed in action and many more have sustained life-
altering injuries. While SOF accounts for just 3 percent of the 
joint force, it has absorbed over 40 percent of the casualties 
in this time. The families of those men and women carry the 
burden of the individual tragedy so that we can help prevent a 
national tragedy.
    This is a unique time for service in the SOF enterprise 
because it is an inflection point. First, section 922 has 
reinvigorated SO/LIC's partnership with SOCOM. And secondly, 
the National Defense Strategy has challenged us to increase our 
focus on long-term strategic competition with Russia and China.
    The SOF enterprise is in the midst of a transformation, 
something special operators have always done very well. In 
November, General Clarke's predecessor General Thomas and 
Assistant Secretary West issued the first-ever joint vision for 
the SOF enterprise, challenging our professionals to innovate 
relentlessly in pursuit of a decisive competitive advantage.
    To improve SOF's readiness for contingencies across the 
vast spectrum of warfare, we continue to make tremendous 
progress in reducing the strain caused by high operational 
tempo and demand. At the height of the wars, a large portion of 
our force was spending as much time overseas as in the United 
States. This year, over 90 percent of our force will spend at 
least twice as much time at home as they will in deployment.
    I am proud to report to you that our SOF force is healthy, 
poised, and eager to defend the Nation against increasingly 
adaptive foes.
    Building out our 2019 trajectory to develop a more 
resilient, ready, and lethal SOF enterprise, the fiscal year 
2020 budget requests the resources necessary to sustain our 
readiness while supporting recapitalization and modernization 
of SOF-peculiar capabilities.
    As called for in the NDS, we have prioritized investments 
in technology to enhance lethality and effectiveness of the 
force, focusing our modernization on precision strike, directed 
energy, artificial intelligence, close-combat lethality, cyber, 
and space operations.
    Our $13.8 billion baseline budget request embraces 
innovative capabilities that result in greater lethality, 
increases in efficiencies and flexibility, and strengthens our 
ties to allies and partners. The request supports an end-
strength increase of approximately 2.2 percent while we 
continue to mitigate shortfalls in certain enablers.
    As we continue to make progress in meeting these 
challenges, ASD [Assistant Secretary of Defense] West and I 
share the committee's concerns about the serious ethical 
failings of some members of our SOF community. While they don't 
reflect the true nature of the SOF professional, such incidents 
erode morale and the confidence of our partners and our elected 
representatives and our moral authority. I can assure you that 
these incidents have our full attention.
    Last year, SOCOM and SO/LIC jointly issued clear guidance 
to the force, and our office recently provided a report to 
Congress on a review of our professionalism and ethics. We 
continue to explore ways to enhance oversight and 
accountability by senior leaders, and we will continue to be 
held to the highest standards, including professionalism and 
ethics.
    Finally, I would like to thank this subcommittee for its 
continued strong support of our mission and personnel. The 
sustained funding and authorities you provide are central to 
our success in advancing national security interests at home 
and abroad and in caring for our service members and our 
families.
    Mr. Chairman, I am grateful for the opportunity to testify 
today, and I look forward to your questions. Thank you.
    [The prepared statement of Mr. Mitchell can be found in the 
Appendix on page 34.]
    Mr. Langevin. Thank you, Secretary Mitchell.
    General Clarke, you are now recognized for your opening 
statement.

   STATEMENT OF GEN RICHARD D. CLARKE, USA, COMMANDER, U.S. 
                   SPECIAL OPERATIONS COMMAND

    General Clarke. Chairman Langevin, Ranking Member Stefanik, 
and distinguished members of the committee, I am grateful for 
the opportunity to speak to you today and honored to work with 
ASD and SO/LIC in guiding our special operations force during 
this time of change and challenge.
    I am glad to be here with my teammate Mark Mitchell, who 
mentioned that we have served together in combat in Iraq in the 
past.
    USSOCOM fields ready and capable forces that conduct 
special operations globally to support geographic combatant 
commanders as an integral part of the joint force. We have 
extraordinarily dedicated and talented men and women who 
relentlessly fight and sacrifice for our country and our way of 
life.
    This morning, we interred at Arlington National Cemetery 
CW2 [Chief Warrant Officer] Jonathan Farmer, a special forces 
officer from South Florida who was killed in action in Manbij, 
Syria, on January 16 of this year.
    Jon was a seasoned soldier, with six combat deployments to 
Iraq and Afghanistan. He leaves behind a wife and four 
children. Their devotion and courage are representative of the 
surviving teammates and families. On their behalf, let me say 
thank you for your consistent support from Congress in their 
endeavors.
    Command Sergeant Major Pat McCauley is here with me today, 
our SOCOM senior enlisted leader. And I fully understand that 
the support is contingent upon the trust and faith that you 
place in us to execute our missions to the highest professional 
standard and ethical and moral obligations.
    We are also aware that members of our SOF units have failed 
in recent times to always meet these standards. This misconduct 
erodes that trust. While the vast majority of USSOCOM teammates 
serve with honor and distinction, as our ethos demands, 
perfection is our goal where our values and our laws are 
concerned. We will push forward with our efforts to reinforce 
our core values. You have my commitment that I will hold people 
accountable and preserve the trust that America has in its 
special operation forces.
    USSOCOM's mission is to defend the homeland from the 
continued threat of violent extremist organizations as we 
deter, disrupt, or defeat threats from revisionist and rogue 
states, in line with the priorities laid out in our National 
Defense Strategy. We are postured to address these challenges 
by providing unique capabilities alongside our interagency 
colleagues and international partners.
    My chief assigned task is to organize, train, and equip SOF 
to fight and win against these threats, many of which are 
advancing a technological and tactical capability. To this end, 
we are reshaping and refocusing our current forces and 
capabilities while developing new means and methods for future 
missions. As Secretary Mitchell mentioned, our joint SO/LIC-
SOCOM SOF vision moves us forward in this regard.
    Our SOCOM 2020 budget aligns with this vision and reflects 
the drive for innovative capabilities that increase 
efficiencies, improve lethality, and strengthen ties to allies 
and partners. We are prioritizing the right capabilities 
required for these NDS priorities and sustaining investments in 
advanced training infrastructure to support program force 
structure.
    None of these initiatives are possible without Congress's 
watchful eye and support in securing the authorities and 
resources needed to sustain the world's most capable special 
operations forces. So let me thank you again for your support 
of USSOCOM and our time before you today. I look forward to 
your questions.
    [The prepared statement of General Clarke can be found in 
the Appendix on page 46.]
    Mr. Langevin. Thank you, General and Secretary, for your 
opening statements. I want to extend my condolences, too, to 
the SOF community for their most recent loss. And thank you for 
highlighting that today, the ceremony at Arlington.
    With that, the votes have been called. We are going to 
stand in recess. We will stand in recess subject to the call of 
the Chair, which will be within 10 minutes after votes.
    [Recess.]
    Mr. Langevin. The committee will come to order.
    Again, I want to thank the witnesses for the opening 
statements. I thank both of you for your service to the 
country.
    And, General Clarke, if I could, I would like to begin with 
you for questions, and then I will yield to the ranking member.
    In 2001, SOCOM comprised approximately 46,000 military 
personnel and civilians. Since that time, SOCOM has grown to 
almost 27,000, with additional proposed end-strength increases 
this year.
    Now, some of that growth can be attributed to new SOCOM 
responsibilities such as becoming the coordinating authority 
for weapons of mass destruction and other growth intended to 
increase our readiness of SOF and address growing demand.
    However, as I noted in my opening statement, SOCOM cannot 
solely rely on growth of the force to alleviate the high 
operational tempo of SOF, especially when recruiting and 
retention plague the services and demand continues to increase.
    Further, 1:2 deployment-to-dwell ratios may be a goal of 
SOCOM, but much of that time is spent preparing for the next 
mission. So it is unclear to me why that is considered optimal 
when there is no time off between deployments unless you are 
actively preparing for the next one.
    So stress and strain on the force is significant, and I 
wanted to know what steps you are going to take to manage the 
growing demand on the force and ensure preparedness for 
assigned missions, to include sustainable terrorism operations 
and alignment to the NDS.
    General Clarke. Chairman, a couple things that I would 
highlight.
    I am glad you brought up the 1:2 dwell ratio that the 
Department guidance has moved us to. The feedback that I have 
gotten is that it has been exceptionally helpful for our force, 
gives them time. But I would look--that is more of a minimum 
that we are striving to. Many of the forces are actually at 
1:3, which is our goal. And that is for the Active Component.
    So that would be the first point. And that ability for us 
to be predictable and allow the additional training time has 
greatly increased the readiness, which goes to the point you 
said in terms of the mission and the preparedness for the 
mission.
    I think it is key to note for this committee that we are 
looking hard at what missions we actually are going to take 
part in at the request of the geographic combatant commands, 
that those missions to which we are committed are in our vital 
national interest, that, in fact, no other force can do those. 
So could a conventional force actually do those, or could that 
mission go to our allies or our partners in a specific region? 
And so the manner in which we look at these missions and employ 
those SOF forces forward on behalf of the geographic combatant 
commanders will be key.
    And I think, to note, our reduction in forces over a 5-year 
trend is actually down between 15 and 20 percent right now, 
using a 5-year average of numbers deployed. So we are actually 
trying to optimize the force across SOF.
    Mr. Langevin. What percentage of the force is at 1:3 now? 
And when do you think you will reach your goal?
    General Clarke. Congressman, of the, as you talked about, 
the 70-plus thousand, there are some that don't necessarily 
fall in that pattern at all. I would have to come back to you 
to say which forces overall are 1:3, but there are a good 
amount of our forces that are already at that 1:3 today.
    Mr. Langevin. Good. Yeah. I mean, it would be helpful to us 
to quantify 1:3, 1:2, and then the 1:1 ratio, what----
    General Clarke. The 1:2 is a minimum, and then 1:3 is our 
goal.
    Mr. Langevin. Okay. All right. Thank you.
    So, on that point, will you conduct a comprehensive review 
of SOF organization capabilities and structure to determine 
adequacy, like the one conducted in 2013-2014, as mandated by 
Congress? And should there be another relook since the NDS has 
been published since this assessment?
    Mr. Mitchell. Mr. Chairman, we have a report that is 
currently being prepared--it is in staffing within the 
Department--that is looking at that, doing a comprehensive 
review of USSOCOM roles and missions. And we expect to deliver 
that report on time in May.
    Mr. Langevin. Okay. And as a followup to that, what action 
do you believe the Department can take to better balance the 
workload across the joint force?
    Mr. Mitchell. In addition to the steps that General Clarke 
has already outlined, for our part, we are looking across the 
globe at prioritizing, again, those strategic engagements for 
the force.
    And I would point out that the whole point of the NDS is to 
compete in peacetime, you know, short of armed conflict. And 
our SOF forces in that environment are really multidimensional. 
In other words, you can't look at a CT [counterterrorism]--you 
know, what is ostensibly a CT deployment to Africa is also a 
part of that great power competition against the Russians and 
the Chinese, where we are the force of choice.
    So we are trying to look at our employment of the SOF force 
from a holistic view to ensure that we are maximizing the 
return on that investment, both, again, to our CT mission and 
our great power competition.
    Mr. Langevin. Thank you. And as a followup for you, 
Secretary Mitchell, so what role do you actually play in 
allocation of SOF to the global special operations 
synchronization effort, since allocating force is not solely a 
military matter, obviously, but a political-military task, as 
stated by the NDS Commission?
    And, also, how are you approaching managing the high demand 
for SOF?
    Mr. Mitchell. So our Secretariat for Special Operations, 
which was created in response to section 922 and which is 
expanding, they actively participate in the SOCOM global 
special operations synchronization process. And we get another 
vote when the SECDEF [Secretary of Defense] Orders Book comes 
up for staffing with those deployments.
    And that is really where we, as the special operations 
enterprise, and ASD(SO/LIC) has an opportunity to influence 
those high-demand items, because if they are not at a 1:2 
deployment ratio, it requires a Secretary of Defense waiver. 
And as a management tool, we can request that the Secretary 
decline that waiver. And that is really our main management 
tool for that.
    Mr. Langevin. Has that happened often, where the waiver is 
requested?
    Mr. Mitchell. So this is the first year that we have had 
with the formal 2:1 ratio. And the SECDEF Orders Book is in 
processing for next fiscal year, for fiscal year 2020--I am 
sorry, the current process for fiscal year 2021.
    And so that is where we are exerting that influence, and we 
are looking very closely at those forces to make 
recommendations. So it is a process that is ongoing as we 
speak.
    Mr. Langevin. Thank you, Secretary.
    With that, I will hold. I have additional questions, but I 
will hold there and yield to the ranking member for questions.
    Ms. Stefanik. Thank you.
    I wanted to follow up on what I mentioned in my opening 
statement, the fact that approximately 40 percent of all recent 
casualties are SOF, and we are also seeing increases in suicide 
rates and ideations that we have seen in 2018 most recently.
    I am pleased that the budget request increases the 
Preservation of the Force and Families program by more than 30 
percent, with continued funding for the Defense Health Program.
    That said, I wanted to ask you, General Clarke, how, 
specifically, do we plan on addressing increased suicides, this 
pressure on the families? It is tied into Chairman Langevin's 
question regarding the 1:2, 1:3 ratio.
    And how do we also address other problems, such as lapses 
in ethics and discipline, that are symptoms of a force under 
tremendous strain of 18 years of high operational tempo 
deployment?
    General Clarke. To the first point on behavioral health and 
the suicide rate, I think it is important to note that the 
suicide trend from 2013 to 2018 was actually statistically 
down. But one suicide is far too many, and we continue to put 
the emphasis on each and every one of our service members that 
are in need.
    I am glad you mentioned specifically the Preservation of 
the Force and Family, because in this year's budget request we 
asked for additional funds from Congress. The majority of those 
additional funds are in the behavioral health arena. They are 
to put at the brigade group level to make sure we have an 
additional behavioral health assistant at each and every one of 
those groups to help identify not only for that group but also 
to help the family members. Because, many times, we find that 
the person that is best able to sense or see a change in a 
service member is actually the spouse. So that is why the 
``force and family'' aspect of this is really critical in that 
program. And so thanks to Congress for continuing to support 
that initiative and for behavioral health.
    On the lapses in discipline, obviously for--ASD(SO/LIC) 
submitted a report to Congress addressing that issue 
specifically. But internal to SOCOM, we conducted a 90-day 
review. It was initiated by General Thomas in January. That 
review is in.
    I will meet with all--next week, I am hosting a commanders 
conference with all the component commanders. And that is one 
of the top topics that we will discuss next week, now that the 
report is in from ASD(SO/LIC), is, how do we view this problem, 
and how are we going to in fact get after the root causes of 
any ethical lapses we have had in the past, and what do we do 
going forward.
    Ms. Stefanik. And I wanted to ask a followup on the 90-day 
review that has been completed. This committee is very 
interested in getting briefed on what was found in that review 
and recommendations moving forward. So I would ask for your 
commitment to make sure that the findings of the most recent 
90-day review are briefed to this subcommittee.
    General Clarke. You have my commitment to that.
    Ms. Stefanik. Thank you.
    My next question is sort of at a 30,000-foot level. I 
talked about in my opening statement the importance of building 
a force for the future rather than of today and yesterday.
    And we have been very focused on the CT mission, but as we 
face growing threats from nation-states like China and Russia, 
can you talk to me, both Mr. Mitchell and General Clarke, how 
this budget request and our overall strategy does that?
    And what specifically--what are the unique and strategic 
contributions that only special operations can make to our 
national security when it comes to combating nation-state 
adversaries?
    Mr. Mitchell. So let me start off with the 30,000-foot view 
on what those strategic contributions are.
    We have grown accustomed in the special operations 
community to being the supported force for most of the last 18 
years because we have been the tip of the spear in the CT 
fight. However, moving forward, particularly in great power 
competition, our special operations forces are not necessarily 
going to be in that fight, because the whole idea of the 
strategy is to avoid a kinetic fight.
    And in that regard, I have urged and the command has 
responded by looking to CYBERCOM [U.S. Cyber Command], to 
STRATCOM [U.S. Strategic Command], to TRANSCOM [U.S. 
Transportation Command], and the global combatant commands, and 
seeing how we can best integrate our forces and provide support 
to those in those other domains.
    And I think the special operations community is uniquely 
suited to build networks of partners and allies around the 
globe to put us in a position, first of all, to compete for 
that influence and legitimacy in peacetime and, secondly, to be 
in a position, should armed conflict arise, that we can help 
support our conventional forces, which will be the decisive 
force in a conflict with Russia or China, to be successful and 
also help to defeat the strategies that our adversaries would 
impose.
    Ms. Stefanik. General Clarke.
    General Clarke. Taking that and--I think there are two 
specific things that I would highlight to the committee that 
allow us to compete.
    Number one is the authority to train foreign forces, 
irregular forces, with the 1202 authority that was granted by 
Congress. We do that on behalf of the geographic combatant 
commander. And in a closed session, I can talk some of the 
details of that that allow us to compete. But I think that is 
something we should talk to the committee about, how we can 
compete in a narrow focus, coordinated with our interagency 
partners, that allow us to be in that competition sphere.
    The second thing that I would highlight for the committee 
is the MISO, which is inherently--our military information 
support operations--which is inherently a special operations 
force task with our SIOP [single integrated operational plan] 
forces.
    With this Congress giving the funding for the Joint MISO 
WebOps Center, which the Department determined would be 
resident in Tampa, that would cut across the geographic 
combatant commanders so that we can get our messages out that 
are aligned with Department of State's Global Engagement Center 
and allow us to compete in that space ahead of time and make 
sure that we are countering some of the vitriol that is coming 
out of Russia at this time and the falsehoods.
    And I can talk more about that in closed session.
    Ms. Stefanik. Thank you. I yield back.
    Mr. Langevin. Thank you, Elise.
    And I want to also reiterate what the ranking member had 
brought up in terms of continued work with the committee on the 
professionalism and ethics review. I think that is important. 
We need to make sure that we get that right. It goes right to 
the heart of the health, also the force, and make sure they 
have the right training and support.
    With that, Mr. Kim is now recognized for 5 minutes.
    Mr. Kim. Well, thank you so much for coming on out here. I 
am going to probably reserve most of my questions for the 
closed session, but I just wanted to go off of what the ranking 
member just brought up.
    I think that is critically important for us on this 
committee to be able to articulate well, both to our colleagues 
as well as to our constituents, the mission of what it is that 
your organizations are doing going forward as we see the near-
peer conversation and this great power competition become more 
and more in our lexicon once again.
    So with Mr. Mitchell, I just wanted to go back to what you 
were saying. You were talking about some of the efforts that 
you are working on with CYBERCOM. And I guess I just wanted to 
ask, you know, how is that integrating in? How is SOCOM 
integrating in with CYBERCOM? And how are those roles and 
responsibilities being, you know, deconflicted there?
    Mr. Mitchell. So I would just start off by saying that I 
believe that CYBERCOM has been an important addition to our 
Nation's arsenal. Long overdue, and happy to see that there and 
actually out now working on behalf of the Nation.
    As I stated earlier, we have a responsibility to help 
coordinate with that. We do have liaisons there at Cyber 
Command, SOCOM does, and works very closely with them to ensure 
that we are integrated.
    And I will let General Clarke address some of the----
    General Clarke. Some of the specific details that we work 
with CYBERCOM, I can talk more in detail in a closed session.
    But, Congressman Kim, I think the key for me with General 
Nakasone going forward is that we have a relationship that is 
clear in our division. There is no overlap with CYBERCOM and 
SOCOM, but, in fact, it is a relationship that gets after our 
national security interest.
    Mr. Kim. Thank you. I mean, we will look forward to picking 
that back up in the closed session.
    Just, again, continuing on this thread, some of the 
different roles and responsibilities that you talked about 
coming under this NDS, MISO and some of the other efforts that 
you mentioned, a lot of these are ones that SOCOM had been 
conducting previously as well.
    So I guess I am questioning, does the NDS actually change 
anything for SOCOM? Do you feel like there are new missions or 
new entities within what it is you are doing that are coming up 
because of this now greater focus on near-peer and great power 
competition?
    Mr. Mitchell. Let me just say, I do think there will be. We 
are in the early stages of implementing the NDS. I point out 
that the NDS calls for a focus on great power competition, but 
it recognizes that the fight against violent extremist 
organizations is not going away and we have to balance that.
    I do think we will see some new concepts for employment of 
special operations forces moving forward. And we are working 
with the services to ensure that we are integrated with their 
development efforts. A lot of them are implementing experiments 
with employment and making sure that we are tied in with them. 
Because the fifth SOF truth is that successful special 
operations requires support from general purpose forces.
    Mr. Kim. Appreciate it. Anything else to add?
    General Clarke. The asymmetric advantage that we have over 
the two great power competitors of Russia and China is our 
allies and partners.
    And Mr. Mitchell mentioned it, but as we look at where we 
posture our force to be in that great power competition and as 
we place forces at the right time to compete on the edges with 
those near-peer competitors, I think that alone sends a signal, 
but then if you bolster it with the information operations--and 
a small team, small element of special operations forces can 
bring a significant impact----
    Mr. Kim. Yeah.
    General Clarke [continuing]. Working with foreign forces.
    Mr. Kim. The other thing I will just add there, just, you 
know, from my time seeing how SOCOM and our special forces have 
been operating, I would add to it, just saying that the 
coalitions that you have built with our partners around the 
world, I have seen the special ops side of things have deeper 
ties with other forces across our partners, more so than pretty 
much anything else that I have witnessed.
    And I think that would be a great place for you to be able 
to build that out going forward as we try to realize the true 
potential of SOCOM there with this new strategy.
    I will yield back.
    Mr. Langevin. Thank you, Mr. Kim.
    And Mr. Bacon is now recognized for 5 minutes.
    Mr. Bacon. Thank you, Mr. Chairman.
    I want to thank both of you for being here today.
    And we ought to just say right up front, our special forces 
are the best in the world--battle-proven, battle-hardened 
virtually every day, going back 18 years. And I was fortunate 
enough to have served with you all in the conventional air 
forces, supporting you with ISR [intelligence, surveillance, 
and reconnaissance], electronic warfare, but then also a year 
in Iraq, more or less part of your team. And I would just say, 
the results day in and day out were remarkable, and I know it 
continues. So my hat is off to you and your team.
    My first question is about light attack aircraft, and I 
defer to which one is best to ask. But, as you know, the Air 
Force had signaled that it was going to produce a light attack 
aircraft, whether it be a light attack bomber or a ground 
attack fighter-type aircraft. And now it subsequently looks 
like it has changed directions on that.
    It is my position that there is still a need for it, 
though, because F-35s, F-22s are high-end. We need something 
for that permissive environment that is cheaper to operate or 
more efficient to operate.
    So is there a requirement for SOCOM for a light-attack-type 
platform, and should this fall in your bucket?
    General Clarke. I will take first attempt at this one.
    First, concur, light attack aircraft is a need for SOCOM, 
and I think it is a need for our Nation. And I see it for two 
primary reasons. One, it will help our special operators on the 
ground for identification and protection from and of enemy 
forces.
    Second reason, as we look at the foreign internal defense 
[FID] of other nations, many nations are now developing their 
own air forces. In many cases, they are light attack. And so to 
train with those nations, as developing countries, with SOCOM 
FID forces is something that is really inside our jar job, 
inside SOCOM.
    We will work with the Air Force. I will work with General 
Goldfein to look at the timing and the mix and where we go 
forward with that. So you have my commitment to do that with 
the Chief of Staff of the Air Force and his team. I don't know 
specifically some of the programmatics at this point in time to 
be able to address that, but I identify it as a need.
    Mr. Bacon. Secretary Mitchell.
    Mr. Mitchell. Yes, I would like to add that, you know, from 
our perspective, the NDS calls on us to have a more cost-
effective counterterrorism effort. The most cost-effective CT 
effort is the one done by our partners and allies, if we can 
help them be successful. And many of them simply don't have the 
resources to put into, you know, fifth-generation fighters.
    And from a strategic perspective, we think the flight hours 
for those fifth-generation fighters are best spent preparing--
--
    Mr. Bacon. Right.
    Mr. Mitchell [continuing]. And deterring our near-peer 
competitors.
    So we see a real important need for a light attack moving 
forward and are hopeful to come up with a suitable solution 
with the Air Force.
    Mr. Bacon. Right. Second question is on DCGS, the 
Distributed Common Ground System, for intelligence and 
exploitation. As you may recall, the Army had done investments 
but did a lot of internal R&D [research and development] and 
then found they were not in compliance, lost a couple of court 
cases. I think there have been some efforts by SOCOM to do 
something similar with your own DCGS capabilities.
    And so, are we confident we are doing the right thing, that 
we are not looking at commercial-off-the-shelf capabilities 
first and then going internal? And I just want to make sure 
that you feel like you are in compliance and doing that right.
    Mr. Mitchell. I am going to have to take that back for the 
record.
    Mr. Bacon. Okay.
    Mr. Mitchell. My understanding of where we are at, though, 
is that the systems that are going into the DCGS SOF are 
commercially available software and systems. But we owe you a 
more in-depth answer on that.
    Mr. Bacon. Okay.
    [The information referred to can be found in the Appendix 
on page 63.]
    Mr. Bacon. One last question, as I have about, like, 1 
minute left here. You know, there are some various allegations 
on civilian casualties in AFRICOM [U.S. Africa Command]. Can 
you just tell us about the processes that you go through to be 
as safe and as smart about this as possible? Because I know how 
hard you try, but I think it is important for the committee to 
hear and, you know, our citizens.
    Mr. Mitchell. So, first, let me say that from ASD(SO/LIC), 
we have responsibility for civilian casualties as part of our 
portfolio. Even though the Deputy Under Secretary, Dave 
Trachtenberg, has been named as the senior civilian official, 
we provide him support.
    We go through extensive measures, typically many, many 
hours of ISR, watching targets, trying to ensure with the 
highest level of certainty that there are no noncombatants in 
there.
    In the case of the AFRICOM casualty estimate--or civilian 
casualties, unfortunately, the command, in reviewing their 
film, identified that but failed to report it up, and that is 
why so much time went through.
    But we take it very seriously. We are in the process of 
developing a department-wide directive on mitigating civilian 
casualties, reporting, tracking, and responding. So it is 
something that Secretary Mattis and Secretary Shanahan take 
very seriously.
    Mr. Bacon. Thank you so much.
    Mr. Chairman, I yield back. Appreciate the time.
    Mr. Langevin. Thank you, Mr. Bacon.
    Mr. Crow is now recognized for 5 minutes.
    Mr. Crow. Thank you, Mr. Chairman. And thank you, Mr. 
Mitchell and General Clarke, for your long and distinguished 
service to the country.
    I know, General Clarke, last time we saw each other was at 
Bagram in 2005 when we were both members of the 75th Ranger 
Regiment. Rangers lead the way.
    And thank you, Mrs. Clarke, for your long history of 
service to the country as well.
    And as a former captain, when I walk into a room, I 
immediately try to identify the command sergeant major. So, 
Sergeant Major McCauley, thank you. I understand you are 
retiring next month, so congratulations on that retirement. And 
thank you for your long history of service to our country as 
well.
    We are at our 18th year of war now. There are twice as many 
SOF forces deployed as there were before 9/11. We are operating 
in over 80 countries, as you indicated earlier, Mr. Mitchell. 
The suicide rates have been well documented. It is a theme that 
you are picking up from the committee here. I and many of my 
colleagues are gravely concerned with the stress that we are 
putting on our force.
    You know, undoubtedly, as Mr. Bacon indicated, our special 
operations forces are the best in the world. And when people 
are very good at what they do, they are often asked to do a 
lot.
    And we have continued to add to that mission over the last 
18 years. And I know SOCOM now does the counter-WMD [weapons of 
mass destruction] mission, the synchronization of plans and 
operations for a global terrorist network operations, lead for 
DOD's security force assistance, all in addition to traditional 
CT and foreign internal defense and direct action missions.
    Simply put, I am gravely concerned that we are over-tasking 
SOF. And as we pivot to great power competition, I just see no 
scenario under which SOF isn't asked to pick up more of the 
burden for our legacy operations.
    So, all of that said, which of those new mission sets least 
align with the historical mission set in the mission of SOCOM? 
And if you had a magic wand today, which ones would you take 
off of your plate so that we could reduce stress and burden on 
our troops and remain good at what we are asked to do?
    General Clarke. In terms of the mission----
    Mr. Crow. Correct.
    General Clarke [continuing]. I believe at this time the 
counterterrorism mission for our national mission force is the 
most important mission that we do, number one priority, and 
that is because that is to protect the homeland.
    I think that within that mission, much like some of the 
aspects we have done with the Africa optimization, it is not 
necessarily take away a mission, but I see reduction internal 
to some of these missions, rather than take a mission off the 
plate.
    You specifically mentioned the countering weapons of mass 
destruction mission. For SOCOM, that is largely a staff and 
look-at process, where the resources for that actually came 
completely from our Strategic Command. And so it hasn't 
increased a burden on the force. But I am glad you asked it.
    And so I think it is a rightsizing of the missions internal 
to make sure we have the right force allocation against it. You 
have my pledge to look at do we have the right forces at the 
right place and are they overstressed, and if they are, I will 
call that signal bell immediately.
    Mr. Crow. Okay. I appreciate that. And I know you are the 
quintessential professional, so you won't ever ask for things 
to be taken off your plate, but it is our responsibility to 
ensure you are not being over-tasked. And what I am hearing is 
the CT mission should remain the primary focus.
    Mr. Mitchell.
    Mr. Mitchell. I would echo General Clarke's comments, 
particularly about the CWMD/counter-VEO [violent extremist 
organization] coordination mission being a mostly headquarters 
function and not requiring deployment of forces.
    To return, also, back to the discussion earlier about the 
2:1 dwell time ratio as the floor that we are seeking, I think 
having a department-wide policy with respect to that is an 
important tool in our management toolbox to say no to those 
missions that aren't priority missions for the Nation and to 
protect the force moving forward. And I think that is going to 
be our main tool.
    We, as the civilian leadership, have to set the priorities 
for the missions and help shape and protect the force. But that 
tool of the dwell time is extremely----
    Mr. Crow. And other than that dwell time tool, are there 
other tools that you are missing that allow you to make that 
prioritization?
    Mr. Mitchell. No, I don't think--in terms of tools missing. 
We have a role in the development of policy. Obviously, SO/LIC 
is dual-hatted both as a service secretary and a policy, and I 
think in our policy role we can advocate for the appropriate 
prioritization of the missions.
    Internal to the Department, the Secretary has asked us to 
take a look at how we view, globally, our CT efforts and how we 
are managing those. And we expect to change the way that the 
Department is looking at those. Again, that is our main tool 
for shaping employment.
    Mr. Crow. Thank you.
    Mr. Langevin. Thank you, Mr. Crow.
    Before I go to Mr. Gallagher, you know, we hear a lot about 
what is a priority SOF mission, but what, in your minds, is not 
a priority mission for SOF?
    General Clarke. Chairman, the way I look at it, it would 
be: What are those security-force-assistance-type missions that 
could in fact pivot to another force?
    And an example would be our security force advisory 
brigades. SOF should be in places where it is a light 
footprint, it is politically sensitive, with a small team that 
is training other special operations forces primarily.
    But I think there are opportunities going forward with the 
element that I just mentioned that the Army has developed 
where, in fact, a security force advisory brigade that has 
company commanders and battalion commanders that have been 
trained conventionally can train conventional forces from other 
forces if we can have a footprint.
    So I think that would be an example of something that SOF 
doesn't have to do any longer going forward. And, obviously, I 
will work very closely with the Army and with the Department to 
make sure that we have the right force applied.
    Mr. Langevin. Secretary, comment on that?
    Mr. Mitchell. I would echo that comment. I think that is 
really the major area. Of course, our CT forces, there is 
nobody else in the Department that can provide that mission and 
that effective a force.
    And the security force assistance, whether it is in Joint 
Staff exercises or other types of engagements, we need to be 
very selective in which ones of those that we take on and make 
sure that we maximize our support from our general purpose 
forces.
    Mr. Langevin. Thank you. And lastly, I wanted to ask, when 
will the Army brigades be available outside of Afghanistan?
    Mr. Mitchell. Well, I think we will have to take that one 
for the record. I don't have enough visibility on the Army's 
force generation process to answer that.
    Mr. Langevin. Okay.
    [The information referred to can be found in the Appendix 
on page 63.]
    Mr. Langevin. I wanted to get those in, so thank you. I am 
sorry.
    The Chair now recognizes Mr. Gallagher for 5 minutes.
    Mr. Gallagher. Thank you, Mr. Chairman.
    I would like to follow up on Mr. Crow's line of questioning 
as well as the ranking member's line of questioning.
    I think we sort of have bipartisan agreement around the 
conceptual shift embedded within the NDS. Sort of, we are 
moving towards the near-peer fight, great power competition. 
Therefore, counterterrorism cannot be ignored, but it is not 
the top priority.
    You have both stated that counterterrorism is your bread 
and butter. But as you look at that shift, right, I mean, as we 
try and implement the National Defense Strategy, not only sort 
of throwing around heady terms like ``great power competition'' 
but specifically to move from a paradigm of deterrence by 
punishment to deterrence by denial, particularly in the Indo-
Pacific region, just in as specific terms as you can, what role 
do you think SOCOM will play in that effort?
    And if the answer is you will cover the CT mission while 
other forces do deterrence by denial in the Pacific, that is 
okay as well. Just help us flesh that out.
    Mr. Mitchell. I would offer a couple thoughts.
    As we talked about earlier, our special operations forces 
excel at building partner capacity with similar forces. And as 
we look to shift to that denial, I think we will find our SOF 
forces being involved in that.
    Remember, the Chinese and the Russian threats are global 
threats, and that is one of the reasons why--part of the reason 
why we are in 80 countries, because we are addressing those 
threats and trying to gain influence and legitimacy with those 
partners.
    Again, I think we will play a significant role in that. We 
have a built-in advantage as a preferred partner for providing 
security assistance, and I think we need to leverage that, 
again, to build our influence.
    The one example I would give right now: In the Philippines, 
this committee, the chairman of the HASC [House Armed Services 
Committee] recently agreed to allow us to move forward with an 
important CT effort, but that is also a critical component of 
building influence with that country and maintaining--keeping 
Chinese at arm's length.
    Mr. Gallagher. And, General Clarke, if you could comment.
    And, also, building upon that, I mean, besides the 
relationship with the Philippines, as you look at the INDOPACOM 
[U.S. Indo-Pacific Command] region in particular, what 
partnerships jump out to you as ones that SOCOM in particular 
but DOD in general should prioritize with the long-term China 
threat in mind?
    General Clarke. Right. Immediate to mind comes in Korea and 
Japan. We have a special operations Korea theater Special 
Operations Command that not just assists with a conflict on the 
peninsula but they can also look broader. We have special 
operation forces in Okinawa in Japan that can help with that 
great power competition and have a sense for around the 
country. But those are two where we have a large U.S. presence.
    I think the other countries that fall into that: Singapore, 
Thailand, Vietnam, Malaysia. And in the future, I think India 
is a great partner, specifically, for us. We don't have a great 
SOF presence there now, but my predecessor, General Thomas, 
traveled to India earlier this year specifically to engage the 
Indians for the future.
    It is a great question. Thank you.
    Mr. Gallagher. So that might be an area where we could 
grow, going forward.
    So just a final one. The other big conceptual shift that I 
am struggling to understand in the NDS is this idea of sort of 
a contact, a blunt layer, a surge layer, and a homeland layer. 
How should we think about where SOF sort of fits in that 
taxonomy?
    Mr. Mitchell. I think we fit in the contact layer, day in, 
day out, across the globe, making contact with partners and 
allies and being in a position to reduce the influence of the 
Russians and the Chinese.
    I would just point out that they are willing to fill a 
vacuum. Anytime we leave somewhere or move out, they are more 
than willing to get in. And so I think it is a primary role 
that we play in that contact layer.
    General Clarke. If I could, the only other thing I would 
say--I agree with Secretary Mitchell's comments. But against 
Russia and China, we don't have to compete ``mano a mano'' 
[hand to hand]. There are places where China and Russia exist--
Djibouti, in South America--that our actions there could also 
work in that layer that I think we should consider going 
forward.
    Mr. Gallagher. Yeah. I mean, to the extent you are talking 
about subconventional gray-zone-type competition, I would 
completely agree.
    Thank you both, gentlemen. My time has expired.
    Mr. Langevin. Thank you, Mr. Gallagher.
    Mr. Brown is now recognized for 5 minutes.
    Mr. Brown. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your presence today and for your 
service to our Nation.
    Maybe about 6 or 7 weeks ago, I wrote a letter to Secretary 
Shanahan, joined by a number of members in this committee, 
where we expressed our deep concern on the use of military 
service members and Department of Defense resources for 
operations on the southwest border and construction of a border 
wall.
    As you know, the President invoked section 2808 of title 
10, which allows unobligated MILCON [military construction] 
funds to be used as a source of funds for the border wall.
    So my question is, how does this impact SOCOM? How many 
projects are unobligated? How does this compound the unfunded 
requirements by further delaying unfunded projects?
    Mr. Mitchell. It is my understanding that there are--no 
decisions have been made with respect to taking any SOCOM 
MILCON funding. There are a number of projects--I believe the 
number is six--that are on the list of potential projects, but 
there has been no decision made on those specific projects. So 
it has not, to date, had any impact on SOCOM.
    Mr. Brown. And assuming that one or more of those six would 
see funds taken away, what would be the impact?
    Mr. Mitchell. I would have to reevaluate at the time on the 
specific project and how long it would be delayed.
    General Clarke. And I would voice and echo Mr. Mitchell's 
point. I would weigh in from the impacts if it were decided 
that one of our MILCON projects was there.
    But I would also highlight, Congressman Brown, to your 
first question, there are no SOCOM forces on the border. There 
has been no impact to SOCOM thus far because of the border 
employment.
    Mr. Brown. Another question. How would deferred counter-
drug programs under section 284(c) of title 10, how would that 
impact SOCOM and counter-transnational-organized-crime efforts?
    Mr. Mitchell. So SO/LIC also has responsibility for 
counternarcotics and transnational organized crime. All of our 
DOD counternarcotics efforts are, at this time, fully funded. 
And none of the funds that have gone from 284 have been 
actually taken from our counternarcotics budget.
    We distributed all of our funds to our National Guard. Our 
DOD Demand Reduction [Program] is fully funded. And we are 
continuing to support our law enforcement partners around the 
globe using our 284 authorities.
    Mr. Brown. Okay. Because in a response that I received just 
recently to my inquiry--and the response was from Kenneth 
Rapuano--he did indicate that activities supporting counter-
drug and counter-transnational-organized-crime activities under 
section 284(c) of title 10 would be deferred to the end of the 
current fiscal year or fiscal year 2020.
    So what you are saying is that--but SOCOM effort in that 
program wouldn't be impacted.
    Mr. Mitchell. So no impact to SOCOM. And ASD Rapuano is our 
ASD for Homeland Defense and Global Security. At the time that 
that letter was written, there was discussion within the 
Department and with the White House about potentially holding 
those funds pending a decision. Those funds have all been 
released by OMB [Office of Management and Budget] and the 
Comptroller. And so the letter was accurate at the time, but 
the situation has changed since then.
    And, again, has no impact on SOF forces.
    Mr. Brown. Thank you.
    I yield back, Mr. Chairman.
    Mr. Langevin. Thank you, Mr. Brown.
    Mr. Waltz is now recognized for 5 minutes.
    Mr. Waltz. Thank you, Mr. Chairman.
    And I just want to echo my colleagues' gratitude--really, I 
know you are in your dream job, so really to your families, who 
are putting up and once again suffering with your service. But 
thank you.
    And thank you, ma'am, as well.
    I just want to go back to Africa for a moment, where I 
understand you are going through optimization, which is really 
a reduction of a footprint. What are we not doing there? Where 
are we taking risk?
    I have served in Niger, Nigeria, all along West Africa. I 
mean, the geography is just intense, vast. Libya, I understand 
the operations that are going on there in terms of the 
evacuation; East Africa, the Kony mission. I mean, it has 
been--it was already, I think, chronically underresourced.
    So what are we not doing? Then what are we doing with 
optimization of those forces if we are not increasing dwell 
time? Where are they shifting to? Just walk us through what we 
are no longer going to do or do as much in that theater.
    General Clarke. I will take first stab at it.
    On the Africa optimization, I am glad you raised it, 
because it was looked at through the lens of threat to our 
homeland and the specific CT mission that we were conducting. 
And any force that was decided they were no longer needed were 
the only forces that came out.
    And I can talk specific numbers in the closed hearing as to 
what came out, but it really did go to what is important in our 
vital national interest and then could another, in this case an 
ally, do it. Because it is clearly in, in particular, our 
European allies' best interests because of migration into their 
area of operations and specific to their populations.
    So that is really the lens at which the Africa optimization 
did--and some of these programs were enduring programs that 
truthfully just needed a relook.
    Mr. Waltz. Okay.
    General Clarke. So that is the way I would address----
    Mr. Waltz. I will look, you know, for more detail perhaps 
in the closed session. I hope we can get there.
    It just occurs to me that that is--if we are looking at a 
shift to great power competition, that there is a confluence 
there between resource competition, China's involvement, 
Russia's re-involvement, and the CT space, where half the 
world's population is going to be by 2050. I think it was 
already an underresourced area.
    But just in the interest of my few minutes, I want to go 
back to light attack. Do you need that capability now?
    General Clarke. I would say we have some capability now, 
but we need to continue to grow it.
    Mr. Waltz. You know, the Air Force went through this, 
started a program in 2009. You know, that did not come to 
fruition. Now we are looking at a continued experimentation. 
And I have been pretty vocal on the record that, while we of 
course as a Nation need things that fly far, fast, and high, we 
need things that fly low, armored, and can loiter and can land 
in places like West Africa.
    So I will continue to press, frankly, the Air Force on that 
capability. We need it now. And while we shift to great power--
I think that is a comfort zone for lots of places in the 
building--that we can't forget those operators like Chief 
Farmer--I was at the funeral this morning as well--that are out 
there in 70, 80 countries as we speak.
    CIV/CAS [civilian casualties]. Is--does--let me ask you 
this way. Do the geographic combatant commanders feel like they 
have full responsibility with the shift? I guess what I am 
trying to get at is, with the shift of the Theater Special 
Operations Command in, what, 2013, 2014, the reporting to 
SOCOM, I just sense, is there a disconnect?
    I know, obviously, you are responsible for the training. 
You hand them off to the geographic combatant commander. There 
is an operational line there. But, you know, I am thinking back 
to the ongoing Niger investigation; now in East Africa. It 
seems to be a trend there. I think in Afghanistan, in those 
combat theaters, they seem to have more pieces in place for 
oversight.
    Do you sense a disconnect there, number one?
    And then, number two, I am very mindful of an overreaction, 
where we tend to pull flexibility away from the ground force 
commanders. What are your thoughts?
    And I would welcome from both of you.
    General Clarke. I don't see any disconnect. You 
specifically mentioned the theater Special Operations Command. 
They are COCOM to me, they are assigned to me, but they are 
actually under the operational and tactical control of the 
geographic combatant commanders.
    So that strike approval process and the CIV/CAS that is 
monitored and watched to prevent is all done based upon the 
intent of the geographic combatant commander. So, Congressman, 
I don't see any disconnect at all.
    Mr. Mitchell. From a policy perspective, the combatant 
commanders are solely responsible for the conduct of operations 
within their AORs [areas of responsibility]. And we hold them 
accountable for implementing the Department's measures with 
respect to civilian, noncombatant casualties.
    Mr. Waltz. Thank you, Mr. Chairman. My time has expired.
    Mr. Langevin. Thank you, Mr. Waltz.
    Ms. Slotkin is now recognized for 5 minutes.
    Ms. Slotkin. Thanks.
    It is great to see you guys. I know everyone has lauded you 
and said how happy they are to see you, but I know that, for a 
lot of us, we sleep easier knowing that you two are in the jobs 
that you are in. So thank you for that.
    A lot of my questions have been asked, so I am going to 
take it in a slightly different direction.
    I was asking a number of the service chiefs last week about 
the value of allies and partners and, in particular, the SOF 
world. And I know, from my time, we watched a number of 
countries go from being sort of middling to being better and 
being able to conduct and perform operations with us.
    Can you help us understand what would happen if those 
allies and partners, let's say, with us in West Africa, in the 
Middle East, decided not to support those missions? What would 
your budget request look like? How would it be different?
    General Clarke. Congresswoman, the number one thing that I 
look at from what you are raising is our--what our allies and 
partners give us is the access and placement and the posture to 
be able to project our power going forward. And, specifically, 
we do that from a CT and a VEO aspect, focused on the high-end 
threat, but it also allows us, as both of us have said, to 
actually compete with Russia and China.
    In terms of what that could mean for budget, I think it 
looks to the posture aspect of what would we then have to do 
differently where we couldn't get into a specific country. And 
there are a lot of variations on this depending on where and 
when that happened. You may need additional ships; you may need 
additional long legs for some of your aircraft. So having the 
posture that can be allowed by our allies or partners is 
critical.
    Ms. Slotkin. Uh-huh.
    Mr. Mitchell. I would just offer that we also have 
responsibility for U.N. [United Nations] peacekeeping. And a 
recent study looked at the cost of deploying a battalion from 
another troop-contributing country in lieu of a similarly sized 
U.S. organization. The cost to deploy that U.S. force would be 
eight times as much as the support that we offer through the 
U.N.
    So we very much value the contribution of our partners and 
allies. As I said earlier, that is the most cost-effective way, 
is having competent and willing partners and allies.
    Ms. Slotkin. Uh-huh.
    Let me shift gears. The designation on Monday of the IRGC 
[Islamic Revolutionary Guard Corps] as a terrorist 
organization, a foreign terrorist organization, and then the 
retaliatory declaration that CENTCOM is a foreign terrorist 
organization.
    What contingency plans have you all put in place? How do 
you think this is going to affect you? What work have you done 
to prepare yourselves for what may be--I don't know--a 
different world based on how Iran plans to act?
    Mr. Mitchell. We don't want to address any specific force 
protection measures in this forum.
    But what I would say is that the IRGC has been a threat to 
U.S. forces for decades, since the 1983 bombing, through 
Khobar, and then into Iraq, where they are responsible for the 
deaths of hundreds of American service men and women. And so we 
have been aware of the threat for a long time and have factored 
that into our protections.
    And, again, we would be happy to talk a little bit more in 
detail in the closed session on that.
    Ms. Slotkin. But so you supported the designation?
    Mr. Mitchell. The Department offered its views during the 
interagency process. The decision has been made by the State 
Department to designate them and we are supportive of that.
    Ms. Slotkin. Okay.
    I yield back my time.
    Mr. Langevin. Thank you, Ms. Slotkin.
    And now, last but not least, Mr. Conaway is recognized for 
5 minutes.
    Mr. Conaway. Thanks, Chairman. Appreciate that.
    Just real quickly, on a whole lot more mundane subject but 
nevertheless important, and that is auditing the Department of 
Defense books involves everybody. And could you help me and the 
rest of us understand where your role is and how important it 
is to you that we get that done? And are you going to make it?
    Mr. Mitchell. So, from a macro perspective, SOCOM underwent 
its first audit. They were unable to give any kind of real 
grade.
    One of the challenges that we face is that the SOCOM 
accounting systems are dependent upon the service accounting 
systems. And so, to the degree that we are depending on them, 
it is very difficult for us to get to that complete 
auditability.
    Don't get me wrong; we are very much interested in making 
sure that we get to that point. But the limiting factor on us 
right now, the most significant one, is the service 
accountability procedures.
    Mr. Conaway. General Clarke.
    General Clarke. Yes, sir. One, SOCOM welcomes the audit. It 
helps us see ourselves, and I think it is actually a good thing 
when you can look at yourselves and get an outside look to help 
us get better.
    There were 69 internal controls identified in the audit 
that we will look at strongly and come up with a path to try to 
reduce those down. Because, at the end of the day, this is a 
good thing. It will help us get better and actually save some 
money in the long run.
    Mr. Conaway. So have you actually assigned somebody either 
in uniform or a civilian specific responsibility for 
shepherding each of those to completion?
    General Clarke. I can't tell you today in----
    Mr. Conaway. But the idea is, if everybody is responsible, 
then nobody is responsible.
    General Clarke. But, Congressman, we will have someone 
responsible. Ultimately----
    Mr. Conaway. I understand.
    General Clarke [continuing]. Myself, reporting to the 
Secretary, is responsible for getting it done. And I assure you 
we will get that done.
    Mr. Conaway. Okay. Well, again, it is important on lots of 
levels. I appreciate both your attitudes to that.
    And I will add my congratulations to both of you.
    And, Sergeant Major, thank you for your long years of 
service.
    There are an awful lot of hash stripes on all three of you-
all's sleeves. I can't see the Air Force sleeves. But that is 
an awful lot of time away from Mom and Dad and the kids and a 
lot of birthdays missed and a lot of anniversaries missed and a 
lot of once-in-a-lifetime opportunities back home that were 
missed.
    And so you are doing the fun part. I try to thank the 
families more than anybody else, because they bear the largest 
brunt of keeping you in the fight. And so, on behalf--please 
thank your families for what all they have put up with over all 
these years of your long service.
    So thank you, Mr. Chairman. I yield back.
    Mr. Langevin. Thank you, Mr. Conaway. And I, too, echo 
those comments.
    I want to thank you, Secretary Mitchell and General Clarke, 
for your testimony here today, for your service to our Nation.
    Mrs. Clarke, it was an honor to meet you as well. I am glad 
you could attend today's hearing.
    And before I close out the hearing, I, too, want to 
congratulate Command Sergeant Major Patrick McCauley on your 
retirement.
    And the command sergeant major began his career as a Marine 
in 1986. Joined the SOF community and went to assessment and 
selection and a special forces qualification course.
    And now you retire as the SOCOM senior enlisted leader. A 
great deal to be proud of, and many great years of service to 
our country, for which we are all grateful. And I wish you well 
in the next chapter in your life.
    With that, I thank you all again for your service. And I 
hope you express our appreciation, the committee's 
appreciation, to all of those under your command and all of the 
SOCOM family, both the families themselves and the men and 
women who wear the uniform. We are all grateful and indebted to 
you for your service. Thank you for what you do.
    This hearing will now--the public hearing will now adjourn, 
and we will reconvene in closed session.
    [Whereupon, at 4:19 p.m., the subcommittee proceeded in 
closed session.]

     
=======================================================================

                            A P P E N D I X

                             April 9, 2019

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 9, 2019

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 9, 2019

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. LANGEVIN

    Mr. Mitchell. A Security Force Assistance Brigade (SFAB) is already 
working outside Afghanistan now. Currently, the 2nd SFAB from Fort 
Bragg, North Carolina, is deployed to the U.S. Central Command 
(USCENTCOM) area of responsibility executing train, advise, and assist 
missions in support of Operation INHERENT RESOLVE (OIR) (Iraq) and 
Operation FREEDOM'S SENTINEL (OFS) (Afghanistan). The deployment of the 
SFAB to the USCENTCOM area of responsibility has allowed for the 
reduction of one Infantry Brigade Combat Team (IBCT) in support of OFS. 
USCENTCOM is the only combatant command sourced with the SFAB 
capability. As designed, the SFAB can be trained and equipped for any 
theater of operations. USCENTCOM is currently the priority for SFAB 
employment.   [See page 19.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. BACON
    Mr. Mitchell. U.S. Special Operations Command's (USSOCOM) decision 
to pivot from the previous All-Source Analytical Environment capability 
to the National Reconnaissance Office's (NRO) Fusion Analysis and 
Development Effort (FADE) platform is based on substantial research, 
evaluation, and collaboration. FADE is an established commercially 
developed and Government-owned platform with connections across the 
Intelligence Community (IC) and other Federal agencies. The more 
salient aspects of the platform are its advanced analytics maturity; 
underlying modern architecture; use of proven agile software 
development methodologies; quantity and quality of data sources; 
established partnerships; and cost effectiveness.
    USSOCOM is committed to fielding and deploying all components of 
the DCGS-SOF capability in a fiscally efficient and operationally 
effective manner. The DCGS-SOF acquisition strategy consistently 
leverages existing SOF programs as well as DOD and other Government 
agencies' programs to integrate commercial-off-the-shelf, Government-
off-the-shelf, and other mature technologies into the Program of 
Record. In January 2018, USSOCOM provided written certification that 
all DCGS-SOF program increments procured after enactment of the 
National Defense Authorization Act for Fiscal Year 2018 will be carried 
out in accordance with 10 U.S.C. Sec. 2377. Our strategy involving the 
selection and integration of FADE into the DCGS-SOF POR complies with 
this section of the U.S. Code.   [See page 16.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 9, 2019

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. What are the top five most high-demand/low-density 
skill sets in SOCOM currently? How are personnel being selected to 
attend training for these skills? How long, on average, are personnel 
in these skill sets staying in SOCOM? What is the average deployment-
to-dwell ratio and PERSTEMPO for these personnel?
    Mr. Mitchell. While I would defer to Commander, USSOCOM, for the 
specific details, in general, Special Operations Forces' (SOF) high-
demand/low-density (HD/LD) skillsets are concentrated in the 
intelligence, aviation, joint fires communities, psychological 
operations, and civil affairs career fields. These career fields, most 
of which are found across the SOF Service Components, are among the 
most stressed communities in USSOCOM in terms of deploy-to-dwell ratios 
and personnel tempo ratios. Unlike core special operations specialties, 
identifying the retention in the SOF community of these HD/LD skill 
sets in SOF is difficult due to service-specific personnel policies 
which may require mandatory reassignments. The Services' recruitment 
and training processes provide uniformed personnel with the baseline 
skills and qualifications needed to perform similar roles in the 
conventional forces (such as intelligence analysis or an aircrew role).
    Typically, personnel in those Service communities volunteer for SOF 
and may undergo additional selection, training, and education in order 
to fulfill SOF-unique requirements. Irrespective of the additional 
training, however, the services are not obligated to preserve these 
individuals in SOF assignments. Nevertheless, retention of experienced 
personnel with HD/LD skillsets is a high priority for the SOF 
enterprise given the lengthy training pipelines and the small number of 
qualified candidates. The retention rates may also vary over time based 
on Geographic Combatant Command requirements and USSOCOM's capacity.
    Mr. Langevin. Please provide the percentage of SOCOM personnel who 
are below a 1:1 dwell ratio, between a 1:1 and a 1:2 dwell ratio, 
between a 1:2 and 1:3 dwell ratio and at a 1:3 or greater than 1:3 
dwell ratio? Is there a disparity between core special operators (i.e. 
SEAL, 18 Series, Marine Raider) and enabler populations and if so, what 
does that disparity look like?
    General Clarke. 1. The following is a breakdown of Special 
Operations Forces (SOF) deployment-to-dwell (D2D) percentages.
        a. D2D below 1:1 = 1.8%
        b. D2D 1:1-1:2 = 3.9%
        c. D2D 1:2-1:3 = 3.3%
        d. D2D 1:3 or greater = 91.0%
    2. Three of the four SOF Service Components have D2D disparities 
between SOF critical skills operators and SOF Combat Support (CS) 
populations due to force structure and differing generation rates for 
major operator force elements versus support personnel. Examples 
follow:
        a.  Marine Special Operations Command's Marine Special 
        Operations Companies' force generation ratio is 1:3. However, 
        their CS forces generate at a 1:2 ratio based on current force 
        structure. Examples of combat support specialties with low D2D 
        are Joint Terminal Attack Controllers, Dog Handlers, and 
        Signals Intelligence specialists. MARSOC's ``get well'' date is 
        Fiscal Year (FY) 22 following the realization of programmed 
        growth of 368 Combat Support/Combat Service Support (CS/CSS) 
        personnel. This growth will address the current organizational 
        imbalances.
        b.  Air Force Special Operations Command's Remotely Piloted 
        Aircraft (RPA) Combat Support community (launch and recovery 
        personnel) continue to deploy with less than 1:2 D2D but are 
        expected to reach 1:2 D2D by early FY20 with the implementation 
        of pending government-owned, contractor-operated launch and 
        recovery elements.
        c.  U.S. Army Special Operations Command's force generation 
        rate for operator units of action does not create a major 
        disparity between combat and CS forces, primarily because the 
        organic CS personnel are only applied in support of the parent 
        battalion or its subordinate units' deployments. The exception 
        to this model is the Group Support Battalion (GSB) designed to 
        support the Special Forces Group and its organic battalions. 
        When the battalions are deployed separately from the group, 
        they receive a ``slice'' from the GSB, at times overburdening 
        the low density/high demand CS personnel. These assets are 
        carefully managed to prevent overutilization and are rarely 
        directed to support another SOF component requirement.
    3. Naval Special Warfare Command's (NSWC) 24-month force generation 
model is comprised of an 18-month Inter-Deployment Training Cycle 
(IDTC) and 6 month deployments. NSWC deploying force elements, both 
operator and CS personnel, maintain a 1:3 force generation ratio which 
equates to the majority of personnel deploying above 1:2 D2D.
    Mr. Langevin. Is there a personnel tempo (PERSTEMPO) restriction in 
place to prevent SOCOM personnel from going TAD for extended periods of 
time while in CONUS? If so, what is that restriction and is it 
adequate? How is that restriction waived for personnel who volunteer to 
attend training or deploy at a higher pace than the rest of the 
community?
    General Clarke. 1. Yes, there is a PERSTEMPO restriction in place 
to prevent USSOCOM personnel from going on extended temporary duty. 
This restriction is contained in SOCOM's Personnel Tempo Policy 17-24 
and is adequate.
    2. The USSOCOM PERSTEMPO threshold in the policy is 480 days away 
from home station (defined as head away from pillow) in a 24 month 
period (730 days) utilizing a rolling scale that looks at all PERSTEMPO 
events in the previous 18 months and projects upcoming PERSTEMPO events 
6 months forward.
    3. PERSTEMPO events include, but are not limited to: operational 
deployments; Temporary Duty Assignments (TDY); night training or field 
exercises where the service member cannot sleep at his/her normal 
residence; performing service as a student or trainee at a school 
(including any government school); performing administrative, guard, or 
detail duties in garrison at their permanent duty station or home port; 
or unavailable as a result of hospitalization or as a result of 
disciplinary action.
    4. When a Commander (CDR) identifies an individual who will break 
the USSOCOM PERSTEMPO threshold due to current or projected duty 
status, the CDR must either change the projected schedule for that 
individual or initiate a waiver request to be staffed through the 
individual's chain of command to CDR USSOCOM as early as practicable. 
The waiver request can be disapproved by any CDR in the chain of 
command, but only CDR USSOCOM can approve the waiver. This waiver 
process is for directed PERSTEMPO events or those for which an 
individual volunteers.
    Mr. Langevin. What is the average number of deployments, broken 
down by grade and component, of SOCOM personnel? Is there a correlation 
between retention and deployment/PERSTEMPO?
    General Clarke. 1. Determining an average number of deployments is 
very difficult; some deployments are less than a week while others 
range from four to twelve months. There are a number of other factors 
that also make determining averages and identifying impacts on 
retention difficult including the following:
        a.  Deployment rates vary between special operations rated 
        personnel and enabling support personnel who have very 
        different deployment timelines, cycles, and lengths. The number 
        of deployments generally correlates to time in service, 
        particularly for SOF and combat arms.
        b.  Differing deployment lengths across Services generally 
        result in Army personnel having greater number of deployed 
        months when compared to individuals in other Services with an 
        equal number of deployments.
        c.  Navy includes time away from home port while on sea duty in 
        its deployment tracking.
        d.  NSW can only track deployments for FY 15-19. These numbers 
        are artificially low as personnel often depart the unit 
        following completion of a deployment.
        e.  Special operators in special mission units deploy much more 
        often than the rest of the Special Operations Force and are 
        excluded from these averages.
    2. Given the considerations outlined above, the list below shows 
the average number of deployments across all SOF Service Components:
        <bullet>  Enlisted grades E3-E6 average from 1-4
        <bullet>  Enlisted grades E7-E9 average from 4-5
        <bullet>  Warrant Officer grades W2-W3 average from 1-6
        <bullet>  Warrant Officer grades W4-W5 average from 9-16
        <bullet>  Officer grades O1-O4 average from 1-5
        <bullet>  Officer grades O5-O6 average from 5-6
    3. The current relationship between deployments and retention is 
unclear. Previous studies conducted by RAND had indicated both positive 
and negative correlations with deployments. Most of this work was 
completed prior to 2009 and is not special operations specific. A 2009 
RAND news release does indicate that Army had been effective in its use 
of retention bonuses to maintain retention against the otherwise 
negative effects of deployment. USSOCOM will require at least 180 days 
to conduct a study of the relationship between deployment and retention 
for personnel serving in special operations specialties.
    Mr. Langevin. Do all SOCOM components use the same parachutes and 
airborne equipment? If not, why and is there an effect on the 
interoperability of SOF components?
    General Clarke. 1. No, USSOCOM Components use several different 
types of military personnel parachute systems and ancillary airborne 
equipment to conduct static line and military free fall (MFF) training 
and operations. While SOF does conduct airborne operations, USSOCOM is 
not the only element within DOD that possesses this capability.
    2. Parachute systems and ancillary equipment are typically Service 
Common or Service Approved Commercial-off-the-Shelf (COTS). They are 
funded by the individual Services using either MFP-2 or MFP-4 funds and 
provided to USSOCOM service components. Each Service also maintains its 
own airborne related ``authorized for use list'' (AUL) based on its 
specific needs and mission essential tasks, all of which have been 
rigorously tested and approved by the appropriate Service Research, 
Development, Testing and Experimentation organizations. Although the 
Services and USSOCOM Components use different parachutes and airborne 
equipment, interoperability is generally not affected in operations due 
to the make-up of the insertion force, which is typically composed of 
personnel from the same unit using the same equipment. However, the 
four AULs cause a lack of standardization of airborne equipment across 
the USSOCOM Components and does impact training efficiencies and 
interoperability. Recognizing the potential benefits for a single point 
of contact, the USSOCOM Director of Operations is coordinating with the 
Department to designate a single entity responsible for DOD-wide 
airborne related programs.
    Mr. Langevin. Do all SOCOM components use the same individual dive 
equipment (i.e. closed circuit UBA, BCD)? If not, why and is there an 
effect on the interoperability of SOF components?
    General Clarke. 1. Yes, all USSOCOM components use the same 
individual dive equipment (i.e. SCUBA, closed circuit Underwater 
Breathing Apparatus (UBA), Buoyancy Competency Device (BCD)).
    2. The SOF diving capability (Combat Diving and Maritime 
Infiltration) is standardized for two reasons. First, there is an 
established Authorized-for-Navy (military)-Use (ANU) list that USSOCOM 
components can choose equipment from to meet their requirements. For 
example, while all SOF use the Draegar MK25 as the primary UBA, there 
is a family of UBAs components can choose from (i.e. MK25, MK16, MODE). 
Similarly, there are multiple BCDs from different manufactures on the 
list. All items on the ANU list have been tested to nationally 
recognized standards set by the Navy Experimental Diving Unit and 
approved by NAVSEA OOC3. Secondly, the Navy Dive Manual (NAVSEA SS521-
AG-PRO-010 Rev 7) is universally recognized as the authoritative 
reference publication for all diving. Organizationally, the DOD 
Instruction (DODI) 3224.04, Single Manager Responsibility for Joint 
Service Military Diving Technology and Training (MDT&T), establishes an 
effective chain of command with military dive training and safety 
reporting requirements, while directing the Secretaries of Military 
Departments and USSOCOM to conduct all actions necessary to satisfy 
Service or SOF-unique requirements. USSOCOM coordinates its actions 
through the N97 and PMS-NSW and reports to the MDT&T as required.
    Mr. Langevin. Do all SOCOM components use the same ground mobility 
vehicles? If not, why and is there an effect on the interoperability of 
SOF components?
    General Clarke. Yes, USSOCOM equips each of the components with the 
same tactical ground mobility vehicles. USSOCOM tactical vehicles are 
designed to provide varying degrees of performance, protection, and 
mobility based on mission, threat, and geographic terrain. There is a 
minimal number of select USSOCOM National Mission Force units that 
maintain unique mobility capabilities for executing time sensitive 
missions.
    Mr. Langevin. Over the past 5 years, what is the range of special 
duty incentive pay paid to SOCOM personnel broken out by component? 
Within each component, please delineate between rank and occupational 
specialty.
    General Clarke. 1. USSOCOM components utilize both special duty 
assignment pay and assignment incentive pay. Below are the assignment 
pays categorized by Service Component:
    2. Special Duty Assignment Pay
        a. Army
          <bullet>  Enlisted Operators: $375/month
          <bullet>  75th Ranger Regiment/Military Information Support 
        Operations ``V'' Coded Positions: $300/month
          <bullet>  160th Special Operations Aviation Regiment ``F'' 
        qualified: $150-$300/month
          <bullet>  Special Mission Unit (SMU): $375-450/month
        b. Air Force
          <bullet>  Combat Controllers, Pararescue, Tactical Air 
        Control Party Specialist, and Special Operations Weather 
        Technician, SD6: $450/month
          <bullet>  Career Enlisted Aviators Remotely Piloted Aircraft 
        Sensor Operator, SD2 to SD4 based on assigned aircraft: $150-
        $300/month
          <bullet>  Special Mission Unit operators, SD3 to SD6: $225-
        $450/month
          <bullet>  SMU support, SD3 to SD5: $225-$375/month
        c. Navy
          <bullet>  SEAL: $450/month
          <bullet>  Special Warfare Combatant-Craft Crewman: $300/month
        d. Marines
          <bullet>  $75-375/Month
    3. Assignment Incentive Pay
        a. Army
          <bullet>  E-9 Over 24 years of service: $500-$1000/month
          <bullet>  E-9 Nominative billet: $1250 per month
          <bullet>  SMU: $750-$1000/month
        b. Air Force
          <bullet>  SMU: $750-$1000/month
        c. Navy
          <bullet>  SMU: $500-$1500/month
        d. Marines
          <bullet>  NA
    * Greater detail is available in the chart attached in question 8
    [The chart referred to is retained in the committee files and can 
be viewed upon request.]
    Mr. Langevin. Over the past 5 years, what is the range of retention 
or accession bonuses paid to SOCOM personnel broken out by component? 
Additionally, within each component, what is the range of retention or 
accession bonuses paid within each occupational specialty broken down 
by rank? [Question #8, for cross-reference.]
    General Clarke. 1. Recruiting and retention programs are specific 
to each Armed Service with varying compensations. USSOCOM provides 
generalized responses below for recruitment and retention to give a 
general sense of the bonuses:
    a.  Service Initial Enlistment Bonuses:
        <bullet>  Army: Up to $10K
        <bullet>  Air Force: Up to $15K
        <bullet>  Navy: Up to $12K
        <bullet>  Marines: N/A, as Marines do not recruit directly into 
        Special Operations
        b.  Current Retention Bonuses: Retention bonuses are paid based 
        on eligibility zones. Zone A is personnel with 17 months to 6 
        years of service. Zone B is personnel with 6 to 10 years of 
        service. Zone C is personnel with 10 to 14 years of service. 
        Navy and Marines use a Critical Skills Retention Bonus for 
        personnel with more than 14 years of service. Army uses a 
        Written Bonus Agreement for senior personnel and Air Force 
        currently has no program for senior personnel. Attachment 1, 
        SOF Pay Comparison Chart, illustrates Enlistment, Accession, 
        and Retention bonuses delineated by each Service, rank, and 
        occupational specialty. [The chart referred to is retained in 
        the committee files and can be viewed upon request.]
    c.  Historic Retention Bonuses: Retention bonuses are paid from 
Service monies and are not tracked by USSOCOM headquarters.
    Mr. Langevin. Over the past 5 years, what is the range of hazardous 
duty incentive pay paid to SOCOM personnel broken out by component? 
Within each component, please delineate between rank and occupational 
specialty.
    General Clarke. 1. While the Services have some discretion with 
respect to who is paid and the amounts paid, the authorized range of 
Hazardous Duty Incentive Pay (HDIP) pay has remained fairly constant 
over the past five years. The Department of Defense Instruction for the 
Hazard Pay Program restricts payment to three or less hazard incentives 
per individual. The Service authorized HDIP is the same across USSOCOM 
components, ranks, and specialties. The amounts are:
        a.  Flying Duty--Aircrew: $250/month; Non-aircrew: $150/month
        b.  Parachute Duty--Static line: $150/month; Freefall: $225/
        month
        c.  Demolition Duty--$150/month
        d.  Diving Duty--up to $240/month (Master Diver Skill Incentive 
        Pay for enlisted Soldiers is up to $340)
    2. For the Air Force, including the Air Force Special Operations 
Command, DOD approved a three-year pilot program for Battlefield Airman 
Skill Incentive Pay (BASIP). This program replaces individual hazardous 
duty pays (jump, dive, demo, etc.) with one combined monthly pay. Rates 
are based on individual skill level, advanced qualifications, and duty 
requirements. The program became effective September 1, 2017 at the 
following rates:
        a.  Combat Control/Special Tactics Officer: $525-600/month
        b.  Pararescue/Combat Rescue Officer: $540-615/month
        c.  Special Operations Weather Officer: $300-$525/month
        d.  Tactical Air Control Party/Air Liaison Officer: $150-525/
        month
    3. Naval Special Warfare Skill Incentive Pay (SKIP). SKIP will be 
used in lieu of hazardous duty incentive pays to minimize costly 
training interruptions in the NSW inter-deployment training cycle 
(IDTC), minimize the strain on force Personnel Tempo System (PERSTEMPO) 
during the IDTC, and remove financial disincentives associated with NSW 
operators seeking medical care. Specialties: SO, SWCC (O/W/E) up to 
$715/month.
    Mr. Langevin. Do SOCOM personnel conduct periodic peer reviews of 
their team members and if so, how does this affect personnel 
management?
    General Clarke. 1. USSOCOM units do not conduct periodic peer 
reviews for the purposes of evaluations or personnel management.
    2. Many commanders use 360 degree reviews as a means of obtaining 
feedback for their own leaders' development. For example, within Naval 
Special Warfare Command (NSW), Navy officers attend the Naval 
Leadership and Ethics Course (NLEC) prior to taking command or serving 
as an Executive Officer. The NLEC curriculum integrates a contracted 
``360 Feedback'' peer review program to solicit individual feedback as 
an assessment tool. This opportunity provides the member the chance to 
get anonymous feedback from direct reports, peers, and managers in 
order to help refine their leadership style prior to assuming their 
leadership job. NSW's training curriculum also utilizes this same 
program to conduct peer reviews for future Officer and Enlisted SEALs 
as well as Special Warfare Combatant Craft Crewmen.
    Mr. Langevin. How has the optimization of AFRICOM affected SOCOM? 
Has this improved PERSTEMPO and dwell ratios for force providing 
components?
    General Clarke. 1. AFRICOM's Counter-Violent Extremist 
Organizations (C-VEO) Optimization implementation remains underway, 
consisting of various Special Operations Forces moves within AFRICOM 
and redeployments from AFRICOM.
    2. The in-theater moves have had no effect on PERSTEMPO or 
Deployment to Dwell ratios to date.
    3. The redeployments occur between May and October 2019. USSOCOM 
will realize improved PERSTEMPO and dwell ratios during FY20 based on 
the redeployment dates.
    Mr. Langevin. What is the language training requirement for SOCOM 
personnel? What programs are in place for distance learning? [Question 
#13, for cross-reference.]
    General Clarke. 1. There are four sources of language training 
requirements:
        a.  USSOCOM Directive 350-17--This language, regional 
        expertise, and culture (LREC) directive prescribes minimum 
        annual language training for SOF. It also articulates the 
        minimum training required as a part of pre-deployment training.
        b.  Theater Special Operations Commands (TSOC)--The TSOC 
        language capability requirements articulated in plans and 
        current operations are validated by USSOCOM and inform the 
        Service SOF Component training programs.
        c.  Commander's Training Guidance (CTG)--The CTG prioritizes 
        the Joint and Component institutional and unit training 
        programs in terms of capacities and skill levels.
        d.  Service or military specialty driven requirements--organic 
        cryptologic language analysts, Army human intelligence 
        linguists, and Army SOF specialties (18, 37, and 38) are 
        required to maintain minimum skill levels.
    2. Generally, regionally aligned SOF units whose primary tasks 
include Unconventional Warfare, Security Force Assistance, Foreign 
Internal Defense, Civil Affairs Operations, or Psychological Operations 
will have a mix of skill level 1 and skill level 2 capability and non-
regionally aligned SOF will have a mix of SOF capability at skill level 
1. These needs are addressed in basic language training courses in the 
Army SOF, Air Force SOF, and Marine SOF pipelines and sustained at unit 
level. Crypto-linguist, human intelligence, and Foreign Area Officers 
assigned to SOF receive basic language training from their Service and 
sustainment training at the unit.
    3. The minimum formal sustainment training is 120 hours annually 
for category three and four languages and 80 hours annually for 
category one and two languages. Formal sustainment training must 
include a program of instruction developed by an expert in a unit or 
school language training program tailored to the individual student. 
This training will also include interaction with an instructor or 
computer based program and yield an academic score. Training is not 
limited to sustainment training programs work to enhance the students' 
skill level to meet the CTG level 2 requirement.
    4. The primary distance learning platform for SOF is the Special 
Operations Forces Tele-training System (SOFTS). The SOFTS platform uses 
web video conferencing to place students from anywhere into a classroom 
with qualified instructors. About 1,300 students receive basic through 
advanced training through SOFTS annually. Army SOF also uses Polycom, a 
virtual tele-conference system, in their local language training 
facilities to connect students to language training centers 
(specifically from the University of Montana). USSOCOM personnel also 
have access to Service, Defense Language Institute, and Joint Language 
University on-line language and culture resources.
    Mr. Langevin. How many current SOCOM personnel have graduated from 
the Joint Fundamentals Course (CEP-1)? Please delineate the number by 
duty status (i.e. Active, Reserve, Guard) and component command (i.e. 
AFSOC, USASOC, NAVSPECWAR, MARSOC). [Question #14, for cross-
reference.]
    General Clarke. The table below provides the response for Questions 
13-17 and outlines current number of USSOCOM personnel trained in CEP 
1-4 courses.
[GRAPHIC] [TIFF OMITTED] T7497.036


    .epsMr. Langevin. How many current SOCOM personnel have graduated 
from the Enterprise Management Course (CEP-2)? Please delineate the 
number by duty status (i.e. Active, Reserve, Guard) and component 
command (i.e. AFSOC, USASOC, NAVSPECWAR, MARSOC). [Question #15, for 
cross-reference.]
    General Clarke. See response to Question 13 [above].
    Mr. Langevin. How many current SOCOM personnel have graduated from 
the Joint Special Operations Forces Senior Enlisted Academy (CEP-3)? 
Please delineate the number by duty status (i.e. Active, Reserve, 
Guard) and component command (i.e. AFSOC, USASOC, NAVSPECWAR, MARSOC). 
[Question #16, for cross-reference.]
    General Clarke. See response to Question 13 [above].
    Mr. Langevin. How many current SOCOM personnel have graduated from 
Summit (CEP-4)? Please delineate the number by duty status (i.e. 
Active, Reserve, Guard) and component command (i.e. AFSOC, USASOC, 
NAVSPECWAR, MARSOC). [Question #17, for cross-reference.]
    General Clarke. See response to Question 13 [above].
    Mr. Langevin. What are the top five most high-demand/low-density 
skill sets in SOCOM currently? How are personnel being selected to 
attend training for these skills? How long, on average, are personnel 
in these skill sets staying in SOCOM? What is the average deployment-
to-dwell ratio and PERSTEMPO for these personnel?
    General Clarke. 1. The top five high demand/low density skill sets 
are: intelligence (multiple types including counter-intel, cryptologic, 
signals and imagery/geographic); combat medics and corpsman; fire 
support specialists; cyber; and logistics (including water treatment, 
electronics maintenance, and submarine ratings to support Dry Combat 
Submersible (DCS)/SEAL Delivery Vehicle Teams (SDVT)).
    2. Personnel are selected to attend training for these skills in 
accordance with their respective Service career timelines and 
professional development benchmarks, ability to hold security 
clearances, General Technical scores, and career experience within 
their occupational specialty.
    3. The average time these high demand/low density skill personnel 
stay assigned to USSOCOM units is driven by a combination of each 
occupational skill specialty's career development timeline, total force 
requirements, and individual availability. Calculating the average time 
that personnel stay in these specialties in SOCOM will require 
additional time for data collection and analysis (180 days).
    4. Based on the wide variety of specialties across the Services, 
the PERSTEMPO by specialty is difficult to calculate. While these 
specialties are high demand, USSOCOM leaders have proactively managed 
personnel so that USSOCOM has required zero waivers for the last 12 
months.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BACON
    Mr. Bacon. Does SOCOM have the ability to bed-down additional 
squadrons of Light Attack Aircraft today? What are the primary 
operational, infrastructure, personnel and resource considerations 
necessary to establish a SOCOM Light Attack Aircraft force structure?
    Mr. Mitchell. USSOCOM currently has the ability to bed-down the 2-3 
Light Attack Aircraft that are the USSOCOM portion of the USAF Light 
Attack experiment continuation and can absorb a total of five aircraft 
in support of Air Force Special Operations Command's Aviation Foreign 
Internal Defense mission.
    If directed to support Joint Force requirements for close air 
support and precision strike, USSOCOM would require additional 
manpower, infrastructure/military construction, and maintenance support 
as well as sufficient basing to provide access to airspace and ranges. 
A sustainable force structure is essential to establishing a USSOCOM 
Light Attack Aircraft capability that would provide an economical and 
effective means to counter external threats and to conduct persistent 
counter-VEO operations in support of National Defense Strategy 
objectives.
    Mr. Bacon. What do you believe are the critical steps to 
establishing a Light Attack Aircraft capability for SOCOM?
    Mr. Mitchell. The first critical step going forward would be for 
the Rapid Fielding Document (RFD) to be refined to ensure that it, in a 
cost effective manner, adequately accounts for the following 
requirements:
    1) able to operate from austere, dirt surfaces and shorter runway 
lengths;
    2) can be operated with small operational and logistical footprints 
in support of disaggregated teams;
    3) can employ cost-effective precision-guided munitions;
    4) can employ standard intelligence, surveillance, and 
reconnaissance payloads; and
    5) has the capacity to share data-linked information with partnered 
forces.
    Once the RFD is approved, the acquisition process would need to 
continue with a request for proposal, contract award, and initial 
production. In parallel, a manpower and basing analysis needs to be 
conducted to ensure USSOCOM receives the necessary force structure and 
infrastructure to sustain continued combat engagements.
    Mr. Bacon. In your testimony, you stated that you believe SOCOM 
needs a Light Attack Aircraft. What are the priority SOCOM missions 
that a Light Attack Aircraft is needed to perform?
    General Clarke. 1. A Light Attack Aircraft program could fulfill 
two primary missions supporting Joint Force requirements. These 
missions are: 1) to build partnerships and indigenous air support 
capacity; and 2) to conduct low-cost irregular warfare operations in 
support of U.S. and partnered ground forces.
    2. Air Force Special Operations Command requires the ability to 
train partner nation air forces in close air support operations as part 
of an Aviation Foreign Internal Defense mission. A light attack 
platform could serve as a training platform for combat aviation 
advisors preparing to deploy to advise partners who operate a similar 
type of aircraft.
    3. The second mission is close air support in austere locales where 
U.S. and partnered ground forces are conducting irregular warfare 
operations. A platform of this type could reduce risk to small 
disaggregated teams in remote locations, providing armed overwatch and, 
if necessary, close air support during mission execution.
    Mr. Bacon. What are the key performance attributes of a SOCOM Light 
Attack Aircraft? Would a SOCOM Light Attack Aircraft be required to 
conduct sustained operations from austere and unimproved operating 
locations? What type of data would a Light Attack Aircraft be required 
to share to ensure interoperability with other SOF, conventional, and 
partner operating forces?
    General Clarke. 1. A light attack platform should be affordable to 
buy and operate (to both U.S. and partner nations) and able to deploy 
to remote areas with a small logistics footprint. It should have the 
ability to employ precision guided weapons while also being equipped 
with an electro-optical targeting system with full-motion video and 
standard intelligence, surveillance, and reconnaissance capabilities.
    2. SOF frequently operate at great distance from main operating 
bases, thus a light attack platform would be required to forward stage 
near or with small disaggregated ground teams to reduce response time 
and increase loiter over the target area by minimizing enroute flight 
time. This type of platform would be expected to conduct sustained 
operations from austere and unimproved fields and have the flexibility 
to reposition rapidly as the threat environment evolves. USSOCOM 
defines austere operations as operating from dirt runways with 
associated forward refueling and rearming areas. Dirt surfaces with 
lengths between 4,000 to 6,000 feet are expected to be commonly used.
    3. USSOCOM anticipates using Service-common and USSOCOM-established 
data-link programs alongside commercially off-the-shelf procured 
systems, ensuring secure voice and video connectivity between U.S. and 
partnered forces.
    Mr. Bacon. What do you believe is the minimum viable force 
structure for a SOCOM Light Attack Aircraft capability?
    General Clarke. 1. For the Aviation Foreign Internal Defense 
mission, SOCOM has established a requirement for five light attack 
platforms.
    2. For the mission in support of U.S. and partnered ground forces 
conducting irregular warfare operations, our minimum requirement would 
be dependent on the size of a larger service-common acquisition effort. 
SOCOM has not conducted detailed analysis on the force structure needed 
in the absence of a larger service acquisition program.
    Mr. Bacon. Do you believe an organically operated SOCOM Light 
Attack Aircraft would reduce the requirement to deploy advanced 4th and 
5th generation aircraft to support SOCOM forces? Can you quantify the 
operational benefit to DOD of procuring a low-cost Light Attack 
Aircraft to support SOCOM forces worldwide?
    General Clarke. USSOCOM continues to team with the Air Force as it 
proceeds with the Light Attack Experiment to determine the force 
employment options and possible operational benefits of a light attack 
aircraft program. There are several potential benefits to the joint 
force which could accrue as a result of a light attack aircraft 
program. These include: 1) cost-effective support to irregular warfare 
operations; 2) reduced demand on fourth and fifth generation fighters; 
and 3) increased partner capacity to conduct these operations.
    Mr. Bacon. Does SOCOM have the ability to bed down additional 
squadrons of Light Attack Aircraft today? What are the primary 
operational, infrastructure, personnel and resource considerations 
necessary to establish a SOCOM Light Attack Aircraft force structure?
    General Clarke. 1. As with all weapons systems, USSOCOM does not 
have organic infrastructure, but relies on the Service-provided 
infrastructure for support. Any USSOCOM program would require service 
basing action to bed down additional force structure.
    2. If directed to field light attack force structure, USSOCOM would 
require additive manpower, infrastructure/military construction, 
maintenance support, and accompanying sustainment funding in order to 
conduct economical and effective Aviation Foreign Internal Defense and 
irregular warfare operations.
    Mr. Bacon. What do you believe are the critical steps to 
establishing a Light Attack Aircraft capability for SOCOM?
    General Clarke. A key step when considering a Light Attack Aircraft 
program will be to work with the Air Force to ensure any requirements 
documents adequately account for the following capabilities: 1) 
operable from austere, dirt surfaces and shorter runway lengths; 2) 
requires a small operational and logistical footprint in support of 
disaggregated teams; 3) possesses the ability to employ cost-effective 
precision guided munitions; 4) includes standard intelligence, 
surveillance, and reconnaissance payloads; and 5) has the ability to 
share data-linked information with partnered forces. Additionally, 
additive manpower and basing analysis is critical in ensuring this 
force has the necessary force structure to sustain continued 
engagements along with the basing--to include adequate training areas--
to prepare for combat operations.
    Mr. Bacon. I understand that in summer of 2017 USSOCOM cancelled 
its software development effort which had been funded to satisfy the 
All Source Information Fusion component of the Distributed Common 
Ground System-Special Operations Forces (DCGS-SOF). What was the total 
cost of the cancelled ASIF development effort? What were the specific 
reasons for program cancellation?
    General Clarke. 1. From 2015 to 2018, USSOCOM obligated $30.6M on 
development and integration efforts associated with the DCGS-SOF ASIF 
requirements and All Source Analytic Environment (ASAE) contract.
    2. USSOCOM continuously monitors schedules, materiel acquisition 
costs, performance, and risk to mission. To that end, we conducted a 
progress check of the openly-competed ASAE contract that was attendant 
to the DCGS-SOF ASIF requirements in the summer of 2017. Although 
significant progress was evident, USSOCOM user assessments determined 
the ASAE contract materiel solution was not sufficient to support the 
requirements of both SOF Operators and intelligence analysts within 
acceptable cost and schedule.
    Mr. Bacon. I understand that in February 2018 the USSOCOM Commander 
selected the Fusion Analysis Development Effort (FADE) as the new 
solution to meet the ASIF requirement. What do you estimate it will 
cost to develop and fully field FADE as the solution to meet SOCOM's 
ASIF requirement? When do you estimate FADE will reach full operational 
capability?
    General Clarke. 1. The transition to the National Reconnaissance 
Organization (NRO) FADE platform in 2018 allowed the DCGS-SOF program 
to consolidate the Enterprise (ENT) and ASIF requirements into a 
singular, more capable and cost effective materiel solution. The 
estimate to enhance the FADE platform to reach Full Operational 
Capability for ENT and ASIF by 3QFY20 is $36M. Additionally, the 
integration of the DCGS-SOF ENT and ASIF requirements into the singular 
FADE solution provides a cost avoidance of $125M over the Future Years 
Defense Plan of the original DCGS-SOF ENT and ASIF acquisition 
strategies.
    2. We estimate FADE will reach full operational capability in the 
3rd Quarter of FY20.
    Mr. Bacon. Given the failure of the first development effort to 
meet the ASIF requirement, what specific factors give you confidence 
that another government development effort like FADE will succeed?
    General Clarke. 1. USSOCOM has joined eighteen other Government and 
Intelligence Community (IC) agencies and over 85K+ registered users of 
the NRO's FADE platform. We have confidence that this commercially-
developed, government-owned capability provides the foundation for 
achieving all remaining DCGS-SOF ENT and ASIF program requirements with 
the planned USSOCOM modifications to the system.
    2. USSOCOM's decision was based on substantial research, 
evaluation, and assessment by USSOCOM intelligence operators and 
intelligence support analysts. The more salient aspects of the platform 
are its advanced analytics maturity, underlying commercial and cloud 
based modern architecture, the prevalence of open commercial software 
solutions, the use of proven agile software development methodologies, 
the quantity and quality of DOD and IC data sources, the established 
DOD/IC partnerships, and the cost effectiveness of the partnership 
model. USSOCOM is confident that based on these fundamental 
characteristics the DCGS-SOF program has the appropriate foundation to 
enhance the FADE platform to fully realize a materiel solution that 
supports the DCGS-SOF ENT/ASIF requirements.
    Mr. Bacon. Please describe specific performance gaps that currently 
exist between FADE and USSOCOM's ASIF requirement. Please provide 
estimated timelines to resolve or mitigate these performance gaps.
    General Clarke. 1. Two major requirement gaps existed at the time 
of the transition decision to the NRO FADE platform. The first gap was 
a lack of Human Intelligence (HUMINT) reporting data sources that SOF 
all source analysts predominately rely on for all source analysis. The 
second gap was the lack of a fielded Disconnected, Intermittent, and 
Low-Bandwidth (DIL) capability that intelligence operators and 
intelligence support analysts could use in forward edge locations under 
denial of services conditions.
    2. The FADE platform has since added the primary HUMINT data 
sources the DCGS-SOF ENT/ASIF was targeting for inclusion into the FADE 
data fabric. At Trident Spectre 2019, the FADE team successfully 
demonstrated a DIL laptop prototype to the SOF enterprise. Based on the 
successful demonstration of the DIL prototype, three SOF Components 
will begin pre-deployment training with the DIL capability in July 
2019.
    3. Additional secondary tier gap requirements existed at the time 
of the transition decision. The DCGS-SOF program envisions at least an 
additional 12 month effort to complete these SOF enhancements to the 
FADE platform. Full Operational Capability is estimated as 3QFY20. 
Thereafter, the DCGS-SOF ENT/ASIF component envisions a steady state 
enhancement effort based on user feedback, new data sources, and the 
agile software development process.

                                  [all]
</pre></body></html>
